<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    [Clerk's note.--The subcommittee was unable to hold 
hearings on departmental and nondepartmental witnesses. The 
statements and letters of those submitting written testimony 
are as follows:]

                         DEPARTMENTAL WITNESSES

         Prepared Statement of the Government Publishing Office
    Mr. Chairman and Members of the Subcommittee on Legislative Branch 
Appropriations, I am pleased to present the appropriations request of 
the U.S. Government Publishing Office (GPO) for fiscal year 2018.

                 THE U.S. GOVERNMENT PUBLISHING OFFICE

    GPO is the OFFICIAL, DIGITAL, SECURE resource for producing, 
procuring, cataloging, indexing, authenticating, disseminating, and 
preserving the official information products of the Federal Government.
    Under Title 44 of the U.S. Code, GPO is responsible for the 
production and distribution of information products for all three 
branches of the Government, including the official publications of 
Congress and the White House, U.S. passports for the Department of 
State, and the official publications of other Federal agencies and the 
courts. Once primarily a printing operation, we are now an integrated 
publishing operation and carry out our mission using an expanding range 
of digital as well as conventional formats. In 2014, Congress and the 
President recognized this change in Public Law 113-235, which contains 
a provision re-designating GPO's official name as the Government 
Publishing Office. We currently employ about 1,700 staff.
    Along with sales of publications in digital and tangible formats to 
the public, we support openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through our Federal Digital System (FDsys, at www.fdsys.gov) 
and its newly introduced successor system govinfo (www.govinfo.gov). 
Today these systems make more than 1.6 million Federal titles available 
online from both GPO and links to servers in other agencies. In 2016 
FDsys averaged nearly 40 million retrievals per month. We also provide 
public access to Government information through partnerships with 1,148 
Federal, academic, public, law, and other libraries nationwide 
participating in the Federal Depository Library Program (FDLP).
    In addition to GPO's Web site, gpo.gov, we communicate with the 
public routinely via Facebook facebook.com/USGPO, Twitter twitter.com/
USGPO, YouTube youtube.
com/user/gpoprinter, Instagram instagram.com/usgpo, LinkedIn 
linkedin.com/company/u.s.-government-printing-office, and Pinterest 
pinterest.com/usgpo/.
History
    From the Mayflower Compact to the Declaration of Independence and 
the papers leading to the creation and ratification of the 
Constitution, America is a nation based on documents, and our 
governmental tradition since then has reflected that fact. Article I, 
section 5 of the Constitution requires that ``each House shall keep a 
journal of its proceedings and from time to time publish the same.'' 
After years of struggling with various systems of contracting for 
printed documents that were beset with scandal and corruption, in 1860 
Congress created the Government Printing Office as its official 
printer. GPO first opened its doors for business on March 4, 1861, the 
same day Abraham Lincoln was inaugurated as the 16th President.
    Since that time, GPO has produced and distributed the official 
version of every great American state paper and an uncounted number of 
other Government publications, documents, and forms. These documents 
include the Emancipation Proclamation, the legislative publications and 
acts of Congress, Social Security cards, Medicare and Medicaid 
information, census forms, tax forms, citizenship forms, passports, 
military histories ranging from the Official Records of the War of the 
Rebellion to the latest accounts of our forces in Afghanistan, the 9/11 
Commission Report, Presidential inaugural addresses, and Supreme Court 
opinions. GPO's work to keep America informed goes on today, in both 
digital as well as print forms.
Strategic Vision
    GPO is transforming from a print-centric to a content-centric 
publishing operation. Our implementation of a digital transformation is 
consistent with the recommendations submitted by the National Academy 
of Public Administration (Rebooting the Government Printing Office: 
Keeping America Informed in the Digital Age, January 2013) regarding 
our transition to a digital future.
    GPO is developing an integrated, diversified product and services 
portfolio that focuses primarily on digital. At the same time, we 
recognize that some tangible print will continue to be required because 
of official use, archival purposes, authenticity, specific industry 
requirements, and segments of the population that either have limited 
or no access to digital formats, though its use will continue to 
decline.
Strategic Plan
    Our strategic plan, which is available for public review at 
gpo.gov/about, is built around four goals: satisfying our stakeholders, 
offering products and services, strengthening our organizational 
foundation, and engaging our workforce. The plan provides the blueprint 
for how GPO will continue to achieve its mission of Keeping America 
Informed with an emphasis on being OFFICIAL, DIGITAL, SECURE. GPO's 
senior managers convene at the beginning of each fiscal year to review 
the plan and approve the Annual Performance Plan, also available at 
gpo.gov.
    Our customers are involved in the digital world and understand 
technological change. Accordingly, it is important that we foster an 
environment that embraces change and innovation, which leads to new 
ways of thinking, new work processes, and the development of new 
products and services for our customers. Tangible printing at GPO is 
being supplanted by an exponential growth in digital requirements by 
Congress and Federal agencies. Moreover, the public--including the 
library and Government information user communities--has signaled its 
strong desire for increased access to Government information digitally.
    In transforming the way we do business, we are focusing on managing 
content for customer and public use both today and tomorrow. GPO uses 
its extensive experience and expertise with digital systems to provide 
both permanent public access to Government information in a variety of 
formats and the most efficient and effective means for printing when 
required, all within a secure setting that is responsive to the 
customer's needs.

                            GPO AND CONGRESS

    For the Clerk of the House, the Secretary of the Senate, and the 
committees of the House and the Senate, GPO publishes the documents and 
publications required by the legislative and oversight processes of 
Congress in digital and tangible formats. This includes the daily 
Congressional Record, bills, reports, legislative calendars, hearings, 
committee prints, and documents, as well as stationery, franked 
envelopes, memorials and condolence books, programs and invitations, 
phone books, and the other products needed to conduct the business of 
Congress. We also detail expert staff to support the publishing 
requirements of House and Senate committees and congressional offices 
such as the House and Senate Offices of Legislative Counsel. We work 
with Congress to ensure the provision of these services under any 
circumstances.
    Today the activities associated with creating congressional 
information databases comprise the majority of the work funded by our 
annual Congressional Publishing Appropriation. Our advanced digital 
authentication system, supported by public key infrastructure (PKI), is 
an essential component for assuring the digital security of 
congressional publications. The databases we build are made available 
for providing access to congressional publications in digital formats 
as well as their production in tangible formats.
    GPO's congressional information databases also form the building 
blocks of other information systems supporting Congress. For example, 
they are provided directly to the Library of Congress to support its 
Congress.gov system as well as the legislative information systems the 
Library makes available to House and Senate offices. We work with the 
Library to prepare summaries and status information for House and 
Senate bills in XML bulk data format. We are also collaborating with 
the Library on the digitization of historic printed documents, such as 
the Congressional Record, to make them more broadly available to 
Congress and the public.

                        GPO AND FEDERAL AGENCIES

    Federal agencies are major generators of information in the United 
States, and GPO produces their information products for official use 
and public access. Federal agencies and the public also rely on a 
growing variety of secure credentials that we produce, including 
travelers holding U.S. passports, members of the public who cross our 
borders frequently, and other users. Our digital systems support key 
Federal agency publications, including the annual Budget of the U.S. 
Government and, most importantly, the Federal Register and associated 
products. As it does for congressional documents, our digital 
authentication system, supported by public key infrastructure (PKI), 
assures the digital security of agency documents.
Partnership with Industry
    Other than congressional and inherently governmental work such as 
the Federal Register, the Budget, and security and intelligent 
documents, we produce virtually all other Federal agency information 
products via contracts with the private sector printing and information 
product industry issued by our central office and regional GPO offices 
around the country. In 2016, this work was valued at approximately $360 
million, an increase of 6.5 percent over the previous year. More than 
9,000 individual firms are registered to do business with us, the vast 
majority of whom are small businesses averaging 20 employees per firm. 
Contracts are awarded on a purely competitive basis; there are no set-
asides or preferences in contracting other than what is specified in 
law and regulation, including a requirement for Buy American.
    This partnership provides significant economic opportunity for the 
private sector. We have long advocated that where Federal agency 
printing is required, this partnership is the most cost-effective way 
of producing it. In 2013, the Government Accountability Office 
conducted a study at the request of the Joint Committee on Printing 
that identified approximately 80 Federal printing plants still in 
operation government-wide (http://www.gao.gov/assets/660/655936.pdf). 
Additional savings for taxpayers could occur if the work these plants 
are producing is transferred instead to GPO's shared services 
partnership with the private sector printing and information product 
industry.
Security and Intelligent Documents
    For nearly a century GPO has been responsible for producing the 
U.S. passport for the Department of State (DOS). At one time no more 
than a conventionally printed document, the U.S. passport since 2005 
has incorporated a digital chip and antenna array capable of carrying 
biometric identification data. With other security printing features, 
this document--which we produce in Washington, DC, as well as a secure 
remote facility in Mississippi--is now the most secure identification 
credential obtainable. In 2016, GPO produced 20,199,550 passports, an 
increase of 32.9 percent from the year before. Over the past decade GPO 
has produced more than 140 million passports for DOS. Throughout 2016, 
we continued with facility changes and equipment installation and 
testing in support of the planned next generation passport.
    Since 2008, we have also served as an integrator of secure 
identification smart cards to support the credentialing requirements of 
Federal agencies and other Government entities. We have been certified 
by the General Services Administration (GSA) to graphically personalize 
Homeland Security Presidential Directive 12 (HSPD-12) cards for Federal 
agencies. GSA certified that we comply with Federal Information 
Processing Standard 201, which sets requirements to ensure that 
identification cards are secure and resistant to fraud.
    To date, we have produced more than 12.9 million secure credential 
cards across 10 different product lines. Among them are the Trusted 
Traveler Program's (TTP) family of border crossing cards--NEXUS, 
SENTRI, FAST, and Global Entry--for the Department of Homeland Security 
(DHS), which are used by frequent travelers across U.S. borders. 
Another card produced for DHS is the Transportation Worker Identity 
Card (TWIC). We produce a Border Crossing Card (BCC) that is issued by 
the DOS for authorized travel across the Mexican border. We also 
produce secure law enforcement credentials for the U.S. Capitol Police 
that are used in Presidential inaugurations. The work GPO does in this 
field is well-known among the Federal agencies that need these 
products, and has been thoroughly validated by the Government 
Accountability Office in a 2015 report to Congress http://www.gao.gov/
products/GAO-15-326R and the National Academy of Public 
Administration's 2013 report on GPO.

                  GPO AND OPEN, TRANSPARENT GOVERNMENT

    Producing and distributing the official publications and 
information products of the Government fulfills an informing role 
originally envisioned by the Founders, as James Madison once said:

        ``A popular Government without popular information, or the 
        means of acquiring it, is but a Prologue to a Farce or a 
        Tragedy, or perhaps both. Knowledge will forever govern 
        ignorance, and a people who mean to be their own Governors, 
        must arm themselves with the power which knowledge gives.''

    GPO operates a variety of programs and activities that provide the 
public with ``the means of acquiring'' Government information that 
Madison spoke of. These programs include the Federal Depository Library 
program (FDLP), FDsys and govinfo, Publications Information Sales, 
Reimbursable Distribution, and social media.
Federal Depository Library Program
    The FDLP has legislative antecedents that date to 1813 (3 Stat. 
140), when Congress first authorized congressional documents to be 
deposited at the American Antiquarian Society in Worcester, 
Massachusetts, for the use of the public. Since then, Federal 
depository libraries have served as critical links between ``We the 
People'' and the information made available by the Federal Government. 
GPO provides the libraries with information products in digital and, in 
some cases, tangible formats, and the libraries in turn make them 
available to the public at no charge while providing additional 
assistance to depository library users.
    The FDLP today serves millions of Americans through a network of 
1,148 public, academic, law, and other libraries located across the 
Nation, averaging nearly three per congressional district. Once limited 
to the distribution of printed and microfiche products, the FDLP today 
is primarily digital, supported by FDsys and govinfo along with other 
digital resources. This overwhelming reliance on digital content 
allowed for the first digital-only Federal depository library 
designation in 2014. In fiscal year 2016, one new Federal depository 
library was designated as digital-only, while three existing depository 
libraries converted to all-digital status.
Federal Digital System (FDsys)
    We have been providing access to digital congressional and Federal 
agency documents since 1994 under the provisions of Public Law 103-40, 
beginning with a site known as GPO Access. Fifteen years later, GPO 
Access was retired and a significantly re-engineered site debuted as 
GPO's Federal Digital System. FDsys provides the majority of 
congressional and Federal agency content to the FDLP as well as other 
online users.
    Online access to Federal documents made available by GPO has 
reduced the cost of providing public access to Government information 
significantly when compared with print, while expanding public access 
dramatically through the Internet. In 2016, FDsys grew to make more 
than 1.6 million titles from the legislative, executive, and judicial 
branches available online from our servers and through links to other 
agencies and institutions. The system averaged nearly 40 million 
retrievals per month.
            Govinfo
    In early 2016, we unveiled the next generation of our public access 
system with the introduction of govinfo. Though in beta, govinfo 
improves upon FDsys with a modern, easy-to-use look and feel that syncs 
with the need of today's Government information users for quick and 
effective digital access across a variety of digital platforms. 
Following a period of testing and iteratively developing the system's 
features, govinfo will become GPO's primary public access system--the 
third such system since we inaugurated online access in 1994--and FDsys 
will be retired from service.
Publication and Information Sales Program
    Along with the FDLP and our online dissemination system, which are 
no-fee public access programs, GPO provides access to official Federal 
information through public sales featuring secure ordering through an 
online bookstore (bookstore.gpo.gov), a bookstore at GPO headquarters 
in Washington, DC, and partnerships with the private sector that offer 
Federal publications as eBooks. As a one-stop shop for eBook design, 
conversion, and dissemination, our presence in the eBook market 
continues to grow. We now have agreements with Apple iTunes, Google 
Play, Barnes & Noble, OverDrive, Zinio, EBSCO, ProQuest and other 
online vendors to make popular Government titles such as the Public 
Papers of the President-Barack Obama, Unsettled: A Story of U.S. 
Immigration, and Workout to Go available as eBooks. We also offer a 
print-on-demand service for sales titles through Amazon and others, 
which enables us to offer more titles and avoid the expense of 
additional warehousing.
Reimbursable Distribution Program
    We operate distribution programs for the information products of 
other Federal agencies on a reimbursable basis, including the General 
Services Administration (GSA) and the Federal Trade Commission (FTC), 
from our facilities in Pueblo, Colorado, and Laurel, Maryland. This 
program saves money for participating agencies by permitting them to 
take advantage of GPO's centralized capabilities and economies of 
scale.
GPO and Social Media
    We use Facebook, Twitter, YouTube, Instagram, LinkedIn, Pinterest, 
and a blog to share information about GPO news and events and to 
promote specific publications and products. By the end of 2016, we had 
7,530 likes on Facebook, 7,053 followers on Twitter, and 189,253 views 
across 75 videos on YouTube. On Pinterest, we had 749 followers pinning 
on 17 boards of Federal Government information. We also had 569 
followers with 930 posts on Instagram and 3,069 followers on LinkedIn. 
Our blog, Government Book Talk, focuses on increasing the awareness of 
new and classic Federal publications through reviews and discussions.

                             GPO'S FINANCES

Business Operations Revolving Fund
    All GPO activities are financed through our Business Operations 
Revolving Fund, established by section 309 of Title 44, U.S.C. This 
business-like fund is used to pay all of our costs in performing 
congressional and agency publishing, information product procurement, 
and publication dissemination activities. It is reimbursed from 
payments from customer agencies, sales to the public, and transfers 
from our two annual appropriations: the Congressional Publishing 
Appropriation and the Public Information Programs of the Superintendent 
of Documents Appropriation.
Retained Earnings
    Under GPO's system of accrual accounting, annual earnings generated 
since the inception of the Business Operations Revolving Fund have been 
accumulated as retained earnings. Retained earnings make it possible 
for us to fund a significant amount of technology modernization. 
However, appropriations for essential investments in technology and 
plant upgrades are requested when necessary.
Annual Audit
    GPO is accountable for its finances. Each year, GPO's finances and 
financial controls are audited by an independent outside audit firm 
working under contract with GPO's Office of Inspector General. For 
fiscal year 2016, the audit concluded with GPO earning an 
``unmodified,'' or clean, opinion on its finances, the 20th consecutive 
year GPO has earned such an audit result.
Appropriated Funds
    GPO's Congressional Publishing Appropriation is used to reimburse 
the Business Operations Revolving Fund for the costs of publishing the 
documents required for the use of Congress in digital and tangible 
formats, as authorized by the provisions of chapters 7 and 9 of Title 
44, U.S.C. The Public Information Programs of the Superintendent of 
Documents Appropriation is used to pay for the costs associated with 
providing online access to, and the distribution of, publications to 
Federal depository libraries, cataloging and indexing, statutory 
distribution, and international exchange distribution. The 
reimbursements from these appropriations are included in the Business 
Operations Revolving Fund as revenue for work performed.
Fiscal Year 2016 Financial Results
    Revenue totaled $875.3 million while expenses charged against GPO's 
budget were $804.1 million, for an overall net income of $71.2 million 
from operations. Included in both GPO's revenue and net income is 
approximately $24.7 million in funds set aside for passport-related 
capital investments, as agreed to by GPO and the Department of State, 
and $0.4 million in funds resulting from a downward adjustment to GPO's 
long-term workers' compensation liability under the Federal Employees 
Compensation Act (FECA). Apart from these funds, GPO's net operating 
income from fiscal year 2016 was $46.1 million.
    Funds appropriated directly by Congress provided nearly $118.8 
million (including funds from the Congressional Publishing and Public 
Information Programs appropriations, along with appropriations to the 
Business Operations Revolving Fund), or about 14 percent of total 
revenue. All other GPO activities, including in-plant publishing (which 
includes the production of passports), procured work, sales of 
publications, agency distribution services, and all administrative 
support functions, were financed through the Business Operations 
Revolving Fund by revenues generated by payments from agencies and 
sales to the public.

                FISCAL YEAR 2018 APPROPRIATIONS REQUEST

    GPO is requesting a total of $117,068,000 for fiscal year 2018, the 
same as the fiscal year 2017 level. Total GPO appropriations have 
declined by nearly 21 percent since fiscal year 2010. Our continued 
transition to digital technologies and products has increased our 
productivity and reduced costs. Additionally, maintaining financial 
controls on our overhead costs, coupled with a buyout in fiscal year 
2015 that reduced GPO's workforce by 103 positions, has helped make 
this funding request possible. Finally, the utilization of the 
unexpended balances of prior year appropriations, which we are able to 
transfer to GPO's Business Operations Revolving Fund with the approval 
of the Appropriations Committees, has made it possible in recent years 
to hold the line on the level of new funding we request.

                       TOTAL APPROPRIATIONS TO GPO
                          Fiscal Year 2010-2017
------------------------------------------------------------------------
            Fiscal Year                         Appropriation
------------------------------------------------------------------------
2010...............................  $ 147,461,000
2011...............................  135,067,324
2012...............................  126,200,000
2013...............................  117,533,423
2014...............................  119,300,000
2015...............................  119,993,000
2016...............................  117,068,000
2017...............................  117,068,000
------------------------------------------------------------------------

    Our fiscal year 2018 request will enable us to:

  --meet projected requirements for congressional publishing;
  --fund the operation of the public information programs of the 
        Superintendent of Documents; and
  --develop information technology, including IT security, and perform 
        facilities maintenance and repairs that support our 
        congressional publishing and public information programs 
        operations.
Congressional Publishing Appropriation
    We are requesting $79,528,000 for this account, which is less than 
the amount approved for fiscal year 2017. This appropriation has 
declined by 15 percent since fiscal year 2010, as the result of our 
continuing transition to digital technology and products as well as 
actions taken in cooperation with the House of Representatives and the 
Senate to control congressional publishing costs. Unspent prior year 
balances from this account that have been transferred to GPO's Business 
Operations Revolving Fund for the purposes of this account have also 
been used to maintain our requirements for new funding at a flat level 
since 2014.

                 CONGRESSIONAL PUBLISHING APPROPRIATION
                          Fiscal Year 2010-2017
------------------------------------------------------------------------
            Fiscal Year                         Appropriation
------------------------------------------------------------------------
2010...............................  $ 93,768,000
2011...............................  93,580,464
2012...............................  90,700,000
2013...............................  82,129,576
2014...............................  79,736,000
2015...............................  79,736,000
2016...............................  79,736,000
2017...............................  79,736,000
------------------------------------------------------------------------

    Our request for this appropriation is an estimate of the amount of 
work Congress is likely to requisition from GPO for fiscal year 2018, 
based on historical data. GPO has no control over the workload 
requirements of the Congressional Publishing Appropriation. These are 
determined by the legislative activities and requirements of the House 
of Representatives and the Senate as authorized by the applicable 
provisions of Title 44, U.S.C. GPO utilizes historical data 
incorporating other relevant factors to develop estimates of likely 
congressional publishing requirements. These requirements are used as 
the basis of the budget presentation for this account.
    The estimated requirements for fiscal year 2018 include no price 
level changes. We anticipate an overall reduction of $208,000 from 
current year requirements based on projected volume decreases in 
virtually every congressional product category except for business and 
committee calendars, the Congressional Record, and hearings.
    Commensurate with the beginning of the 115th Congress we began 
implementing, in cooperation of offices of the Clerk of the House and 
the Secretary of the Senate, a new composition system that will enable 
GPO to compose congressional bills in XML. The estimated savings from 
this new system have not yet been fully determined but it is expected 
to reduce costs as a result of expediting the production process for 
these documents. The new composition system will be expanded to 
additional congressional products in the future. Additionally, we are 
developing a new composition capability for House hearings following a 
plan designed by the Committee on House Administration, which is also 
expected to reduce costs and improve efficiency.
    The unexpended balances of prior year appropriations that have been 
transferred to GPO's Business Operations Revolving Fund will be used to 
offset anticipated congressional product requirements. The balance of 
these funds is earmarked for the development of our new composition 
system and other projects that may be required of us, including those 
supporting the objectives of the Legislative Branch Bulk Data Working 
Group.
Public Information Programs of the Superintendent of Documents
    We are requesting $29,000,000 for this account, representing a 
decrease of $500,000 or 1.7 percent from the fiscal year 2017 
appropriation. This appropriation has declined by more than 27 percent 
since fiscal year 2010, as the result of our continuing transition to 
digital technology and products which has made the increased 
dissemination of official Government information to the public less 
costly and more efficient.

     PUBLIC INFORMATION PROGRAMS OF THE SUPERINTENDENT OF DOCUMENTS
                              APPROPRIATION
                          Fiscal Year 2010-2017
------------------------------------------------------------------------
            Fiscal Year                         Appropriation
------------------------------------------------------------------------
2010...............................  $ 40,911,000
2011...............................  39,831,178
2012...............................  35,000,000
2013...............................  31,437,000
2014...............................  31,500,000
2015...............................  31,500,000
2016...............................  30,500,000
2017...............................  29,500,000
------------------------------------------------------------------------

    The funding we are requesting for fiscal year 2018 will cover 
mandatory pay and related cost increases for 89 FTE's, the same as for 
fiscal year 2017. Requirements for new funding have also been reduced 
by a decrease in printing costs due to digitization and the use of 
prior year funds as approved by the Appropriations Committees. These 
funds will be used to pay for projects including strengthening public 
access to online information by continuing to build gov.info, and to 
investigate, develop, and replace legacy methods for the selection and 
distribution of digital and tangible materials to Federal depository 
libraries.
Business Operations Revolving Fund
    We are requesting $8,540,000 for this account, to remain available 
until expended, for information technology projects, including 
essential cybersecurity measures, and necessary facilities projects. 
This is an increase over the $7,832,000 appropriated in fiscal year 
2017. Funding provided to this account represents an increase to 
working capital for specified projects. Since fiscal year 2013, these 
projects have consistently included improvements to GPO's FDsys (and 
its successor system, gov.info), which has expanded public access to 
congressional and other Government information products in digital 
formats while decreasing the costs of distributing traditional print 
formats, as well as other essential IT projects. Our request this year 
includes necessary expenses associated with enhancing the cybersecurity 
of GPO's IT systems, as we have communicated to the Legislative Branch 
Cybersecurity Working Group. We also fund necessary physical 
infrastructure projects through appropriations to this account.

        APPROPRIATIONS TO THE BUSINESS OPERATIONS REVOLVING FUND
                          Fiscal year 2010-2017
------------------------------------------------------------------------
            Fiscal Year                         Appropriation
------------------------------------------------------------------------
2010...............................  $ 12,782,000
2011...............................  1,655,682
2012...............................  500,000
2013...............................  3,966,847
2014...............................  8,064,000
2015...............................  8,757,000
2016...............................  6,832,000
2017...............................  7,832,000
------------------------------------------------------------------------

    INFORMATION TECHNOLOGY PROJECTS FOR FISCAL YEAR 2018--$7,000,000

Gov.info Projects--$5,000,000
  --General System and Collection Development ($3,800,000).--
        Development of new FDsys/govinfo features to support identified 
        needs of key stakeholders, including developing new content 
        collections, increasing content in existing collections, 
        enhancing the accessibility of content, and increasing the 
        discoverability of information.
  --FDsys/gov.info Infrastructure ($1,200,000).--Infrastructure for the 
        hardware, storage, and environments to manage system 
        performance as FDsys/govinfo content and usage continues to 
        grow.
Cybersecurity Projects--$2,000,000
  --Security Enhancements for Advanced Persistent Threat ($2,00,000).--
        Required for enhanced technologies and services to combat, 
        detect, and prevent advanced persistent threats (including 
        sophisticated nation-state actors) from compromising GPO IT 
        systems.

  FACILITIES INFRASTRUCTURE PROJECTS FOR FISCAL YEAR 2018--$1,540,000

  --Elevator Repairs ($900,000).--Elevators 3 and 4 at GPO's G Street 
        entrance are aging and need frequent repairs. We intend to 
        replace and upgrade these elevators with modern controls and 
        security features. These elevators also support employee life/
        safety by providing a means for evacuation of medical 
        emergencies.
  --Emergency Power Generator ($500,000).--This will replace GPO's 
        existing diesel emergency generator with one using clean-
        burning natural gas. It will also increase the electrical load 
        that can be supported in the event of an emergency, such as we 
        experienced in 2015 with a power outage by PEPCO.
  --LED Lighting ($140,000).--Infrastructure for the hardware, storage, 
        and environments to manage system performance as govinfo 
        content and usage continue to grow.

    Mr. Chairman and Members of the subcommittee, this concludes my 
prepared statement, and I would be pleased to answer any questions you 
may have.

    [This statement was submitted by Davita Vance-Cooks, Director.]
                                 ______
                                 
             Prepared Statement of the Office of Compliance
    Chairman Moran, Ranking Member Schatz and Members of the 
Legislative Branch Subcommittee, thank you for allowing me the 
opportunity to submit for the record this statement regarding the 
budget request for fiscal year 2018 for the Congressional Office of 
Compliance (OOC).
    Congress created the OOC to administer the Congressional 
Accountability Act of 1995 (CAA) and the 13 Federal workplace laws 
incorporated in the law. We ensure the integrity of a dispute 
resolution system, carry out an education and training program that 
assists employing offices and covered employees in understanding their 
rights and responsibilities under the CAA, advise Congress on needed 
changes and amendments to the CAA, and investigate and enforce the 
CAA's occupational safety and health protections, public access rights 
for persons with disabilities, and unfair labor practice provisions.
    The OOC is requesting $4,055,902 for fiscal year 2018 operations, 
which represents a 2.4 percent increase from the fiscal year 2017 
enacted level. Of the additional $96,902 that is being requested, 87 
percent reflects a projected increase in personnel, benefits, and other 
personnel compensation. The remaining fiscal year 2018 budget request 
focuses on supporting the most important aspects of the statutory 
functions of the OOC and improving the delivery of services to the 
covered community.
               administrative dispute resolution program
    The cornerstone of the CAA is the confidential administrative 
dispute resolution (ADR) process, which consists of counseling, 
mediation, and adjudicative hearings and appeals. The OOC staff remains 
committed to administering an effective ADR program by providing a 
neutral, efficient, and confidential process for resolving workplace 
disputes. We strive to ensure that stakeholders have full access to 
these ADR procedures.
    We continue to improve our newly-launched electronic case 
management system to bring the OOC's procedures in line with current 
best practices. This electronic functionality dramatically increases 
our efficiency by enabling us to streamline delivery of our services to 
the congressional community, as well as to trend data and generate 
detailed reports.
                     education and outreach program
    Along with providing an effective ADR program, the OOC administers 
an Education and Outreach program for the covered community. The most 
effective investment an organization can make in preventing 
discrimination continues to be a comprehensive training program. Our 
education programs also emphasize the benefits of fair and inclusive 
work environments on workforce productivity.
    Our education and outreach efforts have recently migrated to a 
digital based platform. This shift in focus is essential in carrying 
out our statutory training mandate. To continue to fulfill the 
education mandate in the CAA, our budget request reflects the need to 
further expand our efforts and include technical enhancements to allow 
additional and more interactive modules in our online and interactive 
Learning Management System.
    We also remain dedicated to in-person training on important topics 
of workplace safety and health and fairness. The OOC requests an 
additional FTE, and the funding to support an increase in staffing, to 
hire an educator and respond to employing offices' needs for in-person 
training on workplace rights. Currently, OOC staff members provide in-
person training along with a myriad of other duties including internal 
communications, government affairs, litigation, and public relations. 
However, there is no FTE solely responsible for instructing the entire 
legislative branch. The OOC needs at least one additional staff member 
to exclusively develop and deliver training to the covered community. 
This will significantly advance our education program and allow us to 
work more closely with the human resources staff of the employing 
offices, thus ensuring that covered employees are informed of their 
rights and responsibilities under the CAA as mandated by Congress in 
1995.
      safety and health, public access, and unfair labor practices
    Our budget request also reflects the OOC's continuing efforts to 
ensure safe and accessible congressional workplaces through its OSH and 
ADA biennial inspections, as well as its case work investigating and 
abating safety issues, finding and removing barriers to access in 
congressional facilities and programs, and investigating and resolving 
allegations of unfair labor practices. By working directly with the 
AOC, the USCP, and other offices on the Hill, the OOC has been 
instrumental in the development and implementation of cost-effective 
solutions to safety and access problems and in the resolution of unfair 
labor practice charges. We recently completed our biennial inspections 
for the 114th Congress and, in partnership with the National Safety 
Council, issued Safety Recognition Awards to the Member offices that 
were found to be hazard-free during the OSH inspection. During the 
115th Congress, the OOC will continue to stress safety and health for 
all Member offices.
    The balance of the 2.4 percent increase covers increases in 
contract services, including cross servicing providers, equipment, 
supplies and other services needed to operate the OOC. The services 
include professional development of the staff and technical support to 
boost our presence in the ever-growing social media environment on the 
Hill, which presents an opportunity to highlight best practices and 
provide important information to employees who have little time for 
training updates.
    The OOC staff and I are available to answer any questions or 
address any concerns the Chair of the subcommittee or its Members may 
have.

    [This statement was submitted by Susan Tsui Grundmann, Executive 
Director.]
                                 ______
                                 
         Prepared Statement of the Open World Leadership Center
    Chairman Lankford, Ranking Member Murphy, and Members of the 
subcommittee, thank you for the opportunity to present written 
testimony on the Open World Leadership Center.
    Overview: I appreciate the opportunity to offer testimony on behalf 
of the Open World Leadership Center. The Open World Leadership Center 
(Open World or the Center) has served Congress through its 
international professional exchange program since our inception in 
1999.
    The Center administers the Open World program, one of the most 
effective American exchange programs for emerging democracies. The 
program has enabled more than 26,000 global leaders to engage and 
interact with Members of Congress, Congressional staff, and thousands 
of other Americans, many of whom are the delegates' direct professional 
counterparts.
    The Open World program focuses on assisting Congress in its 
oversight responsibilities and on conducting exchanges that establish 
lasting professional relationships between the up-and-coming leaders of 
Open World countries and Americans dedicated to showcasing U.S. values 
and democratic institutions. The Center's nonpartisan nature as a 
legislative branch agency, independent from the priorities of any 
presidential administration, is an important asset of the program and 
of the Congress. The Open World program brings emerging Federal and 
regional political leaders to the United States to meet their American 
counterparts and gain firsthand knowledge of how American civil society 
works. This hands-on and close up look at our processes--and the people 
who run them--has a unique impact on our delegates. The Open World 
experience provides the impetus for improvement; delegates return home 
and set to work creating change based on the models they have seen.
    The ``Soft'' Power of Exchange: The elected officials and young 
professionals from across the former Soviet states and other countries 
who, thanks to Congress, come on the Open World program each year have 
seen the best of America up close and personal. They go back to their 
homes with an improved impression of our country and they share their 
positive impressions with their friends, family, community, and 
professional counterparts. These are the people that go into elected 
office, run cities, teach the next generation, and craft the foreign 
policy that directly affects the United States.
    Open World's Legislative Branch Identity: A question that I hear 
every so often is, ``Why is the Open World Leadership Center in the 
Legislative Branch?'' The answer to this is simply that the placement 
in the legislative branch allows our program to engage influential, 
democracy-minded Russians and others from more closed countries--
products of the Putin Generation looking for positive change--that 
would otherwise choose not to travel on an executive branch exchange. 
It can be a risky and reputation-damaging proposition for a Russian to 
come to the United States as a participant in an executive branch 
program. In April of 2017 Open World hosted five in-demand Middle East 
specialists from Russia. They were blunt in telling us that they felt 
secure on our program, in large part due to its legislative branch 
identity.

        ``Open World appealed to the members of our delegation by being 
        nonpartisan, politically neutral, and outside of executive 
        branch politics. The programming fosters a free, open, deep and 
        meaningful exchange of ideas between peers.''--Group Statement 
        by Middle East Specialists from Russia, April 2017

    Furthermore, the Open World program is a proven asset to the 
Congress because it directly benefits their constituents. In 2016, Open 
World placed delegations of young professionals in all 50 States and 
brought the most members of parliament groups than ever before, 16.
    Front Line against Fake News and Anti-American Propaganda: The Open 
World program is a proven effective method of directly combatting anti-
American disinformation and propaganda being disseminated out of Moscow 
into its neighboring states as well as into other countries via 
sophisticated and well-funded communications methods such as the RT 
television channel. In the 3 years since Ukraine's Maidan Revolution 
and the subsequent illegal annexation of Crimea by the Russian 
Federation, the world has seen undisputed evidence that Russian troll 
farms are blanketing airwaves and the Internet with stories designed to 
disrupt the news cycle. Through our Embassy in Kyiv and other sources 
we find European-minded, anti-corruption activists and young Members of 
Parliament that see a great opportunity in participating in the Open 
World program.
    Similar Russian tendencies are at play in Georgia and Moldova, both 
European Union-oriented governments and with regions mired in frozen 
conflicts with Russia. Open World directly engages members of 
parliament from both countries as well as their leading NGO and social 
services influencers.
    Keeping Russia Close: U.S.-Russia relations continue to be 
strained. In fact, it is reminiscent of a time 18 years ago when our 
founder Librarian of Congress Emeritus Dr. James H. Billington grew 
increasingly concerned about our two country's relations during the 
NATO action in Yugoslavia. He envisioned a mini-Marshall Plan to keep 
goodwill strong at the grassroots level, when our diplomatic efforts 
were at a stalemate. Dr. Billington took his concerns not to the State 
Department, not to private international funders, but to Congress, to 
the Appropriations Committee, in fact, because it was his vision that a 
new model of exchange program would support the international oversight 
activities of U.S. legislators. They agreed with Dr. Billington, in 
effect creating a new support agency for the Congress. In 1999, the 
nascent Open World program brought over 2,000 Russians to the United 
States for professional programming hosted by their American 
counterparts, including Members of Congress, all across the country.
    Today, the Open World Leadership Center continues to conduct a 
highly-regarded international exchange program in the United States 
legislative branch and plays an increasingly vital role in the 
political landscapes of many countries throughout Eurasia, and in 
particular, Russia and Ukraine. Open World has supported leaders who, 
early in their careers, have become influential within their 
communities and in the national arena. For example, Alexei Navalny, 
Russia's most well-known Kremlin critic was an unknown 29-year-old 
lawyer when he came on the Open World program in 2005. Navalny was 
hosted in Dallas, Texas on the Local Governance theme and went on to 
rise in the ranks of a strong and active movement against Vladimir 
Putin. Navalny is only one example demonstrating Open World's expertise 
in selecting the most promising individuals to come on the program 
usually right at the moment that they are about to ascend in their 
profession. We communicate with these alumni, track their results, and 
present them to Congress to show how effective our exchange model is.
    One profound insight our delegates derive from their experience in 
the U.S. is that elected officials truly are accessible and accountable 
to the citizens of their jurisdictions. Another powerful element, again 
consistently praised by our delegates, is the impact of home stays--
delegates living with American families while in the United States. One 
delegate succinctly described ``seeing an America I didn't know 
existed.''
    Congressional leadership is instrumental in advancing democracy and 
strengthening civil society worldwide. With its support by Congress 
Open World is a strategic long-term investment in our security, a 
matter of principle, and a crucial source of our international 
influence and strength. Open World is committed to these efforts while 
recognizing the possibility of uncertainty and setbacks, understanding 
that progress requires our unwavering dedication to enduring principles 
and goals.
    Open World's Powerful Alumni Network: Open World maintains a vast 
alumni network across Russia, Ukraine, and the other countries of the 
former Soviet Union. Many members of the alumni 26,000-strong community 
are active in their communities, regions, and at the Federal level. 
They are a valuable resource to our diplomatic missions abroad. The 
communications multiplier effect is a major result of the Open World 
program. Our alumni dispel myths and untruths about the United States 
and help promote a positive message about the American reality.
    For Open World's Russia program, the objective is to have 
participants return to Russia with a more positive view of America; to 
add to their professional skills through direct contact with U.S. 
citizens engaged in similar work; and to counter the Russian 
information war by providing an objective view of the American people 
and our society. These programs are intense 10-day thematic visits to 
the U.S. that expose young and emerging Russian leaders to democratic 
practices, civil rights, good governance, transparency in media, sound 
health and education policy and practices, the provision of social 
services, and economic development strategies.
    Open World has had enormous success in Russia due to a continuous 
low-key presence there since 1999 providing our colleagues from Russia 
with broad exposure to American democratic and free-market 
institutions.
    Open World's Ukraine program helps Ukraine mature in the aftermath 
of revolution and enhance its leaders' skills and capabilities to 
advance the country's agenda. These programs come at a time when part 
of Ukraine has been annexed and it faces continuing Russian aggression 
in the East and South, and through Russian-controlled media.
    The Open World program also focuses on the institutional 
development of civil society organizations and the promotion of 
democratic and economic reform. The subthemes of the program are aimed 
primarily at fighting corruption, promoting transparency and 
accountability in governance, furthering decentralization of power, and 
improving the business climate to enhance trade capacity, particularly 
as it relates to the agricultural and energy sectors.
    Open World has had growing success in Ukraine as it has worked 
steadfastly there since 2003 to be responsive to its developmental and 
societal needs. More than 3,200 outstanding alumni now serve in 
leadership positions throughout the country. In 2016, Open World's 46 
Ukraine programs were hosted in 44 U.S. communities in 32 States, 
providing our colleagues from Ukraine with broad exposure to American 
democratic and free-market institutions. To exemplify some programmatic 
results:
    Open World is supporting its alumni in the Parliament and 
throughout the country's legal institutions to assist actual judicial 
reform. Open World works with its U.S. judicial partner, the 
International Judicial Relations Committee of the Judicial Conference 
of the United States (whose Head is chosen by the Chief Justice of the 
Supreme Court), on creating intense programs that outline a practical 
path toward judicial reform.
    Two members of the new Cabinet of Ministers are Open World alumni. 
Open World alumni are in top leadership positions in the Ministry of 
Health, the Ministry of Education and Science, and the Ministry of 
Youth and Sports. The Prime Minister is a strong supporter of the 
project and has been a very active supporter of the Birmingham 
(Alabama)--Vinnitsa partnership program that Open World implements.
    Open World alumni are among the leadership in Ukraine's Parliament 
and many others serve as key staff members. These dedicated alumni are 
eager to work with Open World to expand this element of programming.
    Open World Strategic Goals: The Open World Leadership Center 
Strategic Plan for 2016-2020 builds on the excellent work done under 
the previous plan. We have adopted goals that will strengthen our work 
with Members of Congress and continue to cement our legislative 
identity. The plan sets the Center's direction for the next 5 years. 
This iteration is an update that includes activities through 2020. The 
strategic plan review process includes an effort to ensure that our 
goals are measurable and attainable, despite limited staff resources. 
Our performance measures, which are based on the Government Performance 
and Results Act, are challenging, though obtainable. The Center's three 
goals are to: ensure that the Center is a resource, an asset, and a 
sound investment for Congress; expand the reach of the Center to 
countries strategically important to the United States; operate as a 
model cost-effective, responsive agency.
    Plans for 2017 and Beyond: In the ever-shifting landscape of U.S-
Russian relations and our relations with other strategic countries in 
the region, the Open World Leadership Center is poised to address 
emerging issues such as: Anti-American sentiment; Countering Russia's 
influence; Global health concerns; and Democracy programs. Open World 
was designed to be and has remained agile and can create programming 
quickly to support Congress in their response to pressing international 
oversight issues.

    [This statement was submitted by Ambassador John M. O'Keefe, 
Executive Director.]
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                             BUDGET REQUEST

    I would first like to thank the Committee for their ongoing support 
of the Office of the Secretary of the Senate's budget and mandated 
systems. For fiscal year 2018, I am requesting a budget of $36,307,000. 
The request includes $25,771,000 in salary costs, $1,900,000 for the 
operating budget of the Office of the Secretary, $3,500,000 for the 
Financial Management Information System (FMIS) modernization project 
and $5,136,000 for the Senate Information Services (SIS) program.
    The salary budget represents an increase of $999,000 over the 
fiscal year 2017 budget which includes $629,000 for a cost of living 
adjustment and $370,000 for highly skilled and specially trained staff 
to support the Financial System Program Office (FSPO) within the Senate 
Disbursing Office. The cost of living adjustment is essential to retain 
experienced professional staff who have dedicated their careers to 
supporting the institution of the Senate. The operating budget of the 
Office of the Secretary remains flat at $1,900,000.

                OFFICE OF THE SECRETARY OPERATING BUDGET

    In order to have more flexibility and be able to work within 
stringent budget guidelines, I request that the $1,900,000 be 
designated in multi-year (2018/2022) monies and that the apportionment 
breakdown for the Secretary's accounts be eliminated.

----------------------------------------------------------------------------------------------------------------
                                                            Amount available   Budget estimate
                           Item                             Fiscal Year 2017  Fiscal Year 2018     Difference
----------------------------------------------------------------------------------------------------------------
Departmental operating budget: Executive office...........          $500,000  ................  ................
Administrative services...................................        $1,251,600        $1,900,000  ................
Legislative services......................................          $148,400  ................  ................
                                                           -----------------------------------------------------
      Total operating budget..............................        $1,900,000        $1,900,000  ................
----------------------------------------------------------------------------------------------------------------

                            PROJECT REQUESTS

                       fmis modernization project
    The budget includes a request for $3,500,000 (a planned decrease of 
$500,000 from last year's program amount) in no-year funds to continue 
the modernization of FMIS. This funding is requested to complete the 
Budget and Accounting projects, continue the work on Data Sharing and 
Reporting, and facilitate the retirement of the Senate's mainframe 
computer and associated hardware and software. The flexibility of no-
year funding remains important to the success of the modernization 
project due to its complexity, the unique Senate technical environment 
and business requirements, and the continuing need for open 
competition.

----------------------------------------------------------------------------------------------------------------
                           Item                             Fiscal Year 2017  Fiscal Year 2018     Difference
----------------------------------------------------------------------------------------------------------------
FMIS Modernization Project................................        $4,000,000        $3,500,000        ($500,000)
----------------------------------------------------------------------------------------------------------------

    The FMIS modernization project is an update of the Senate's 
collection of financial applications. This project will: improve 
financial system supportability and flexibility; address business 
requirements not met by the existing system; and continue to bring the 
Senate closer to an integrated, auditable, paperless financial system. 
Throughout the modernization the approximately 140 Senate offices using 
FMIS will not be substantially impacted as they continue to use the 
current program.
    The FSPO was established in May 2016 to oversee the modernization 
effort. FSPO is staffed with Disbursing IT personnel and augmented with 
four additional full-time staff. Over the remainder of the year, FSPO 
collaborated with the Office of the Senate Sergeant at Arms (SAA) to:
  --Issue a Request for Proposal (RFP) for implementation services for 
        the first phase of several phases of financial system 
        modernization activities;
  --Award Indefinite Delivery/Indefinite Quantity (IDIQ) contracts for 
        financial systems modernization services to five qualified 
        vendors;
  --Initiate procurement of the software required to support the first 
        phase of financial system modernization activities; and
  --Facilitate multiple training activities for stakeholders who will 
        be participating in the first phase of the financial system 
        modernization.
    The fiscal year 2018 request is the third year of a planned six-
year phased project. In addition to the funding received to date and 
requested for fiscal year 2017, the table below outlines the additional 
funding required for software and support services for this project.

----------------------------------------------------------------------------------------------------------------
                                             2016       2017
           Fiscal Year Funding             (funded)  (pending)    2018      2019      2020      2021      Total
----------------------------------------------------------------------------------------------------------------
Implementation/Acquisition...............      2.5M     \1\ 4M      3.5M        3M      2.5M      2.5M       18M
----------------------------------------------------------------------------------------------------------------
\1\ Due to the Continuing Resolution (CR), only $2.5M of the $4 million requested for fiscal year 2017 was
  received. The additional $1.5M is critical to activities required to allow the retirement of the mainframe by
  the end of calendar year (CY) 2018. If it must be maintained beyond CY 2018, it and several of its components
  will require replacement at a cost to the Senate that significantly exceeds $1.5M.

    The FMIS Business Case outlines the full scope of the financial 
system modernization project. The following table reflects the Business 
Case, including major phases and timelines for the proposed 
modernization effort as well as the status through fiscal year 2016 and 
activities planned through fiscal year 2018.

----------------------------------------------------------------------------------------------------------------
                                                        Modernization
              Date                  Business Area        Approach and       Status through      Planned through
                                                          Rationale        fiscal year 2016    fiscal year 2018
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2016-Fiscal Year...  Budget............  Replace multiple     --Acquired          --Implement Oracle
  2018 \2\.                                           existing budget      software to         Hyperion Planning
                                                      applications and     support             and Public Sector
                                                      manual processes     development.        Planning and
                                                      with a commercial   --Worked with SAA    Budgeting for:
                                                      software package     to establish         --Phase I--
                                                      widely used by       hardware and        Disbursing; and
                                                      Federal agencies     configure an         --Phase II--
                                                      to:                  initial sandbox     Offices/
                                                     --Allow for more      environment to      Committees and
                                                      efficient and        support             SAA.
                                                      effective budget     development.       --Provide direct
                                                      planning and        --Provided           integration with
                                                      budget execution     training            payroll,
                                                      tracking;            activities for      replacing
                                                     --Enable ``what-      staff               existing
                                                      if'' budget          participating in    PeopleSoft EPM
                                                      analyses at the      the modernization   module, which is
                                                      Senate and           of budget.          used to perform
                                                      individual office   --Held planning      payroll
                                                      levels; and          discussions with    projections and
                                                     --Facilitate direct   payroll system      will reach end of
                                                      integration          stakeholders        support in April
                                                      between the          related to budget/  2018 (Phase II).
                                                      payroll and          payroll
                                                      financial system.    integration and
                                                                           PeopleSoft
                                                                           Enterprise
                                                                           Program
                                                                           Management (EPM)
                                                                           replacement.
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2016-Fiscal Year...  Reporting.........  Streamline and       --Gathered          --Complete review
  2021.                                               modernize the        reporting           of reporting
                                                      reporting            requirements from   requirements with
                                                      infrastructure to    financial system    stakeholders.
                                                      prepare for and      stakeholders.      --Establish
                                                      minimize impacts    --Developed          historical
                                                      of the financial     initial data        reporting
                                                      system               management and      repository on
                                                      modernization,       reporting           distributed
                                                      and:                 strategy.           environment.
                                                     --Reduce the volume                      --Augment
                                                      of reporting data;                       reporting
                                                     --Eliminate unused                        repository with
                                                      and redundant                            budget, payroll
                                                      reports;                                 and procurement
                                                     --Consolidate                             data to support
                                                      numerous,                                retirement of
                                                      disparate report                         legacy systems
                                                      processes;                               currently on
                                                     --Ensure the                              mainframe.
                                                      consistency and
                                                      accuracy of
                                                      historic data; and
                                                     --Provide greater
                                                      flexibility for
                                                      users to customize
                                                      the data they view
                                                      and receive.
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2017-Fiscal Year...  Accounting........  Replace the          --Developed Chart   --Review GL
  2018.                                               mainframe-based      of Accounts for     requirements with
                                                      general ledger       modern GL.          stakeholders.
                                                      (GL) system with a  --Reviewed Chart    --Implement
                                                      commercial           of Accounts with    PeopleSoft
                                                      software package,    Oracle subject      General Ledger,
                                                      which will:          matter experts      Accounts Payable
                                                     --Allow the Senate    and system          and Accounts
                                                      to retire the        stakeholders.       Receivable.
                                                      expensive and       --Documented        --Retire legacy
                                                      increasingly         initial             mainframe and
                                                      difficult to         requirements for    related hardware.
                                                      support mainframe    GL.
                                                      hardware and
                                                      software;
                                                     --Implement a
                                                      modern GL which is
                                                      consistent with
                                                      all current
                                                      Federal financial
                                                      standards and
                                                      reporting
                                                      requirements; and
                                                     --Enhance the
                                                      Senate's ability
                                                      to maintain the
                                                      core component of
                                                      the financial
                                                      system and the
                                                      source of the
                                                      statutory semi-
                                                      annual ``Report of
                                                      the Secretary of
                                                      the Senate''.
----------------------------------------------------------------------------------------------------------------
\2\ The Budget modernization project timeline was extended due to several factors including unanticipated
  activities required to maintain the legacy system and the delay in full funding for the budget work planned
  for fiscal year 2017.


----------------------------------------------------------------------------------------------------------------
                                                        Modernization
              Date                  Business Area        Approach and       Status through      Planned through
                                                          Rationale        fiscal year 2016    fiscal year 2018
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2017 \3\-Fiscal      Data Sharing......  Automate interfaces  --Acquired          --Implement Oracle
  Year 2019.                                          with Senate          software to         Hyperion Data
                                                      systems and          support sharing     Relationship
                                                      outside agencies,    of master data      Management (DRM)
                                                      such as the          between financial   software in
                                                      Department of the    applications.       production
                                                      Treasury, to:                            environment.
                                                     --Reduce errors in                       --Transition
                                                      Senate reporting;                        existing batch
                                                      and                                      master data
                                                     --Eliminate the                           interfaces to
                                                      manual effort                            DRM.
                                                      required to
                                                      support daily and
                                                      monthly external
                                                      reporting.
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2018-Fiscal Year...  Procurement to      Replace the highly
  2019.                           Payment.            customized
                                                      procurement to
                                                      payment
                                                      applications with
                                                      commercial
                                                      software, where
                                                      possible, subject
                                                      to a thorough
                                                      alternatives
                                                      analysis. This
                                                      will allow the
                                                      Senate to:
                                                     --Continue to meet
                                                      unique Senate
                                                      business needs
                                                      while also
                                                      addressing a
                                                      number of business
                                                      requirements not
                                                      currently met by
                                                      the existing
                                                      applications;
                                                     --Enhance the
                                                      Senate's ability
                                                      to administer and
                                                      support financial
                                                      system
                                                      applications;
                                                     --Enable more rapid
                                                      deployment of user-
                                                       requested
                                                      changes; and
                                                     --Facilitate
                                                      tighter
                                                      integration of all
                                                      procurement to
                                                      payment
                                                      applications to
                                                      enhance Senate
                                                      financial
                                                      statement
                                                      production.
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2019-Fiscal Year...  Asset Management..  Replace the
  2021.                                               existing Asset
                                                      Management
                                                      application with a
                                                      commercial
                                                      software module
                                                      that will:
                                                     --Enable direct
                                                      integration with
                                                      financial system;
                                                      and
                                                     --Eliminate
                                                      redundant
                                                      processes and
                                                      data, increasing
                                                      the efficiency and
                                                      accuracy of the
                                                      Senate's asset
                                                      tracking.
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2019-Fiscal Year...  Archival Tools....  Implement data
  2021.                                               archival tools to:
                                                     --Reduce the costs
                                                      and potential
                                                      application
                                                      performance issues
                                                      associated with
                                                      maintaining large
                                                      volumes of
                                                      financial data;
                                                      and
                                                     --Ensure that all
                                                      relevant data is
                                                      archived together
                                                      and may be
                                                      restored together
                                                      as needed to
                                                      support Senate
                                                      financial
                                                      operations.
----------------------------------------------------------------------------------------------------------------
\3\ The Data Sharing project was initiated early to accelerate preparation for the Accounting/GL replacement and
  retirement of the mainframe as well as to minimize impacts to the existing payroll system.

                              sis program
    The budget includes a request for $5,136,000 (an increase of 
$786,000) in multi-year funds (2018/2022) for the SIS program. This is 
the first time since 2011 that this Office has requested additional 
funds to support the continuation of current services offered as part 
of this program ($500,000) and to acquire three new subscription 
services ($286,000) at the request of the Senate community.

----------------------------------------------------------------------------------------------------------------
                           Item                             Fiscal Year 2017  Fiscal Year 2018     Difference
----------------------------------------------------------------------------------------------------------------
SIS Current Services......................................        $4,350,000        $4,850,000          $500,000
Additional Subscriptions..................................                 0          $286,000          $286,000
                                                           -----------------------------------------------------
      Total SIS...........................................        $4,350,000        $5,136,000          $786,000
----------------------------------------------------------------------------------------------------------------

    SIS is a collection of information resources and services, managed 
by the Senate Library, that support the research needs of the Senate 
community, providing cost-effective access to legislative and legal 
databases, academic journals, policy research, historical and current 
newspapers, real-time news tracking, and media alert services. Funding 
enterprise-wide access to research and news services continues to 
provide the greatest return on investment for all Senate users because 
it allows shared access to a comprehensive set of high quality 
resources and tools in support of core business functions at rates 
unattainable by individual offices and committees.
    Usage statistics and feedback from a May 2016 staff survey support 
the procurement of current services as the core set of required 
services for the next 5 years and identify three new content sources 
for inclusion in fiscal year 2018 offerings. Based on this data, during 
2016, the SIS program managers negotiated new service contracts for 
fiscal year 2017, with options through fiscal year 2021, with existing 
program vendors to maintain or enhance services. The agreements provide 
for modest increases in the firm-fixed-price cost of services as 
vendors also continue to add value by updating product platforms, 
enhancing search interfaces, and expanding content and features 
available to the Senate.

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to the Senate community and administered by 
this Office are mandated by law, FMIS and the Legislative Information 
System (LIS).
                        update on status of fmis
    In addition to the six-year modernization project, Disbursing 
continued to oversee the current FMIS program, create a bridge from the 
current program to the modernized financial system, and prepare for the 
roll-out of the first modernized business areas. Several key 
accomplishments over the past year are described below.
    Focusing on the current version of FMIS, the Disbursing Office 
continued to improve the FMIS user experience by publishing a quarterly 
Financial Tips & Tricks newsletter, developing and implementing a 
customer feedback survey, conducting more than 20 group meetings for 
various user communities, and providing direct communications related 
to system updates and issues. Disbursing also engaged in significant 
planning, testing and exercising of FMIS functions supporting the 
Senate's continuity of operations (COOP) planning.
    The Office encouraged adoption of financial system functions that 
lay important groundwork for the modernized program. An example of this 
was increasing the number of offices configured for paperless voucher 
processing by 20 percent. The roll out of imaging and digital signature 
capabilities for paperless voucher processing will continue throughout 
2017.
    In order to prepare for a seamless introduction of the first phases 
of the modernization project, Disbursing completed requirements, a 
design, and the early stages of development for a Web FMIS release to 
facilitate modernization of voucher entry and review. In 2017, 
Disbursing will follow up on this preparation with the following 
releases:
  --FMIS 14.1 (planned for Spring through Summer 2017)--Modernization 
        of voucher creation and review functions used by Member 
        Offices, Committees, Leadership, the Committee on Rules and 
        Administration, SAA, the Office of the Secretary, and 
        Disbursing to address user requested changes, enhance 
        supportability and ensure compatibility with modern browsers; 
        and
  --FMIS 14.2 (planned for Fall 2017)--Modernization of additional 
        document types, such as requisitions, purchase orders, invoices 
        and receiving reports used by SAA and the Office of the 
        Secretary to address user requested changes, enhance 
        supportability and ensure compatibility with modern browsers.
                  update on status of the lis project
    LIS is a mandated system (2 U.S.C. 6577) that provides desktop 
access to the content and status of legislative information and 
supporting documents. In addition, pursuant to 2 U.S.C. 181, a program 
was established to provide for the widest possible exchange of 
information among legislative branch agencies. The long-range goal of 
the LIS Project Office is to provide a ``comprehensive Senate 
Legislative Information System'' to capture, store, manage, and 
distribute Senate documents. The Office is currently focused on a 
Senate-wide implementation and transition to a standard system for the 
authoring and exchange of legislative documents such as bills, 
resolutions, amendments and reports, that will greatly enhance the 
availability and re-use of legislative documents within the Senate and 
with other legislative branch agencies.
    Extensible Markup Language (XML) has been accepted as the primary 
data standard to be used for the exchange of legislative documents and 
information. Following the implementation of LIS, the Office shifted 
its focus to the data standards program and established the LIS 
Augmentation Project (LISAP). The overarching goal of LISAP is to 
provide a Senate- wide implementation and transition to XML for the 
authoring and exchange of legislative documents.
    The Office provides support to Senate Legislative Counsel (SLC); 
the Committee on Appropriations; the Committee on Commerce, Science, 
and Transportation; and the Senate Enrolling Clerk in their use of 
Legislative Editing in XML Application (LEXA) for drafting, engrossing, 
and enrolling. With the addition of the Commerce Committee drafters, 
all Senate measures (bills, resolutions, and amendments) are produced 
in XML. In addition, the Government Publishing Office (GPO) uses LEXA 
to complete measures for printing. Several new features and fixes were 
added in LEXA releases in 2016 to improve the drafting process. Office 
staff trained new drafters in the use of LEXA.
    The Office has been working with staff from GPO and the Legislative 
Computer Systems (LCS) in the Office of the Clerk of the House of 
Representatives to create and print committee reports in XML. The 
initial LEXA committee report application was released to the Commerce 
Committee in 2013, and the Office provided several features which 
improved accuracy, efficiency and reduced processing time. New features 
included importing footnotes, exporting a committee report to MS Word 
for review, and enhanced table handling needed for Appropriations 
Committee reports. Committee report processing for the Appropriations 
Committee was added to LEXA in 2016.
    Other enhancements to LEXA in the past year included improved 
performance when processing large documents and the ability to create 
conference report signature sheets. With the addition of signature 
sheets, all Senate documents printed by GPO for SLC are created in 
LEXA. The ability to test the first release of GPO's system to replace 
Microcomp was also added to LEXA in 2016.
    Two other group projects with GPO and LCS include participants from 
the Law Revision Counsel and the Senate and House Legislative Counsels. 
The multi-phase project for the Law Revision Counsel will result in 
applications to convert, edit, and maintain the U.S. Code in an XML 
format. The Legislative Counsel offices collaborate on maintaining and 
using the compilations of existing law in an XML format. The Office and 
LCS also monitor and participate in GPO's project to replace Microcomp 
with a new composition system that can directly ingest XML data without 
having to convert it to another format before printing.
    The Office will continue to support all Senate offices using LEXA 
and will work with the House, GPO, and the Library of Congress (LOC) on 
projects and issues that impact the legislative process and data 
standards for exchange. With the implementation of committee report 
processing for the Appropriations Committee, the Office will begin a 
project to increase process efficiency in LEXA for Appropriations 
drafters. The Office will also explore options to modernize the LEXA 
application.

                          LEGISLATIVE SERVICES

    The Legislative operations of the Office of the Secretary provide 
support essential to Senators in carrying out their daily chamber 
activities as well as the constitutional responsibilities of the 
Senate. Legislative Services consists of the following departments: 
Bill Clerk, Captioning Services, Daily Digest, Enrolling Clerk, 
Executive Clerk, Journal Clerk, Legislative Clerk, Official Reporters 
of Debates and Parliamentarian.
    The Office of the Secretary maintains a positive working 
relationship with GPO and they continue to respond in a timely manner 
to the Secretary's requests, through the Legislative staff, for the 
printing of bills and reports, including the expedited printing of 
priority matters for the Senate Chamber.
                               bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Office keeps this information in its 
handwritten files and ledgers and also enters it into the Senate's 
automated retrieval system so that it is available to all House and 
Senate offices via the Legislative Information System (LIS), 
Congress.gov, and Senate.gov. Current amendment information is entered 
and updated by the Office and is available to Senate offices on the 
Amendment Tracking System. The Bill Clerk records actions of the Senate 
with regard to bills, resolutions, reports, amendments, cosponsors, 
public law numbers, and recorded votes.
    The Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this Office comes directly from the Senate 
floor in written form within moments of the action involved, so the 
Office is generally regarded as the most timely and most accurate 
source of legislative information.
    The Bill Clerk coordinated with the Office of the Executive Clerk 
and the Office of Web Technology, and the Senate Library to provide 
input regarding Senate data on Congress.gov through meetings with LOC. 
The Office maintained communication with the Secretary's legislative 
offices, floor staff, and the Senate Library in support of facilitating 
input on Congress.gov, predominantly in the areas of legislation, 
committee reports, and the Congressional Record.
                          captioning services
    The Office of Captioning Services provides real-time closed 
captioning of Senate floor proceedings for individuals who are deaf or 
hard-of-hearing and unofficial electronic transcripts of Senate floor 
proceedings to Senate offices on Webster.
    Captioning Services strives to provide the highest quality closed 
captions and is comprised of some of the most seasoned and respected 
captioners in the industry. The overall average accuracy rate for the 
Office has continuously been above 99 percent, a level of achievement 
that has spanned more than two decades. Overall caption quality is 
monitored through daily translation data reports, monitoring of 
captions in real-time, and review of caption files on Webster. In an 
effort to decrease paper consumption and printing costs, accuracy 
reviews and reports were mostly completed in electronic form.
    The real-time searchable Closed Caption Log database and VideoVault 
browser, available to Senate offices on Webster, continues to be an 
invaluable tool for the entire Senate community. Legislative floor 
staff, Cloakroom staff, Senate Recording Studio, and Member offices in 
particular continue to depend upon its availability, reliability, and 
contents to help in the performance of their everyday duties.
                              daily digest
    The Office of the Daily Digest is responsible for publication of a 
brief, concise and easy-to-read accounting of all official actions 
taken by the Senate in the Congressional Record section known as the 
Daily Digest. The Office compiles an accounting of all meetings of 
Senate committees, subcommittees, joint committees and committees of 
conference.
    The Office enters all Senate and joint committee scheduling data 
into the Senate's web-based scheduling application system. Committee 
scheduling information is also prepared for publication in the Daily 
Digest in three formats: Day-Ahead Schedule; Congressional Program for 
the Week Ahead; and the extended schedule which appears in the 
Extensions of Remarks section of the Record. The Office also enters all 
official actions taken by Senate committees on legislation, 
nominations, and treaties into LIS.
    The Office publishes a listing of all legislation which has become 
public law, as well as a ``Resume of Congressional Activity'' which 
includes all Congressional statistical information, including days and 
time in session; measures introduced, reported and passed; and roll 
call votes. The ``Resume'' is published on the first legislative day of 
each month in the Daily Digest. The Office also assists the House Daily 
Digest Editor in the preparation at the end of each session of Congress 
a history of public bills enacted into law and a final resume of 
congressional statistical activity.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office and are published in the 
Record, on the Digest's page on Senate.gov, and in LIS. Meeting 
outcomes are also published by the Daily Digest in the Record each day 
and continuously updated on the website.
    The Office publishes a ``20-Year Comparison of Senate Legislative 
Activity'' which can be found at: http://www.senate.gov/reference/
resources/pdf/yearlycomparison.pdf
                            enrolling clerk
    The Office of the Enrolling Clerk prepares, proofreads, corrects, 
inputs amendments and prints all legislation passed by the Senate prior 
to its transmittal to the House of Representatives, the National 
Archives, the White House, the United States Court of Federal Claims, 
and the Secretary of State. Electronic files of all measures engrossed 
and enrolled in the Senate are transmitted daily by the Enrolling Clerk 
to GPO for overnight distribution and public web access.
    The Office also keeps the original official copies of bills, 
resolutions, and appointments from the Senate floor through the end of 
each Congress.
                            executive clerk
    The Office of the Executive Clerk is responsible for the Journal of 
the Executive Proceedings of the Senate, a record of the Senate's 
actions during executive sessions.
    The Executive Clerk, receives, assigns numbers to, and processes 
the nominations, treaties, executive communications, petitions or 
memorials, and presidential messages sent to the Senate. As part of 
this processing, the Executive Clerk enters each of these into LIS 
along with the Senate's actions on each.
    The Office prepares the Executive Calendar daily when there are 
nominations, treaties, or resolutions related to treaties before the 
Senate. The Executive Clerk also prepares all nomination and treaty 
resolutions for transmittal to the President of the United States.
    The Office worked in collaboration with the Office of the Bill 
Clerk, the Office of Web Technology, and the Senate Library to provide 
extensive knowledge and feedback to LOC related to the Senate materials 
available on Congress.gov, primarily in the areas of nominations, 
treaties, executive communications, presidential messages, and 
petitions or memorials.
                             journal clerk
    The Office of the Journal Clerk takes notes of the daily 
legislative proceedings of the Senate in a minute book and prepares a 
history of bills and resolutions for the printed Journal of the 
Proceedings of the Senate, or Senate Journal, as required by Article I, 
Section V of the Constitution. The content of the Senate Journal is 
governed by Senate Rule IV, and is approved by the Senate on a daily 
basis.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
Chamber whenever the Senate is in session, noting the following by hand 
for inclusion in the minute book: (i) all orders (entered into by the 
Senate through unanimous consent agreements), (ii) legislative messages 
received from the President of the United States, (iii) messages from 
the House of Representatives, (iv) legislative actions as taken by the 
Senate (including motions made by Senators, points of order raised, 
division votes taken and roll call votes taken), (v) amendments 
submitted and proposed for consideration, (vi) bills and joint 
resolutions introduced, and (vii) concurrent and Senate resolutions as 
submitted. These notes of the proceedings are then compiled in 
electronic form for eventual publication of the Senate Journal at the 
end of each calendar year. Compilation is efficiently accomplished 
through utilization of the LIS Senate Journal Authoring System. The 
Senate Journal is published each calendar year, and in 2016, the Office 
completed the production of the 1,000-page 2015 volume. It is 
anticipated that work on the 2016 volume will conclude by August 2017.
                           legislative clerk
    The Legislative Clerk sits at the rostrum in the Senate Chamber and 
reads aloud bills, amendments, the Senate Journal, presidential 
messages, and other such materials when so directed by the Presiding 
Officer of the Senate. The Legislative Clerk calls the roll of Members 
to establish the presence of a quorum and to record and tally all 
``yea'' and ``nay'' votes. The Office prepares the Senate Calendar of 
Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. The Office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate. The Office is responsible for verifying the accuracy of 
information entered into LIS by the various offices of the Secretary.
    A small sample of the work completed during the 114th Congress, 2nd 
Session includes the processing of 2,243 submitted amendments, 329 
reports of committees, 163 roll call votes, and the incorporation of 
267 floor amendments into measures considered by the Senate.
    The Office works closely with GPO, particularly the night 
production crew. For this past session of congress there were 166 
separate issues of the Calendar of Business published. Publications are 
also available online, which has lowered the need for printed copy and 
makes the materials more accessible.
                     official reporters of debates
    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
Floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and oversees the production 
of the Record to ensure its accuracy and consistency with Senate 
parliamentary rules and procedures.
    When the Senate is in session, the electronic and paper transcripts 
of the floor proceedings of the Senate begin to go to GPO in the early 
evening, and the last delivery occurs approximately three hours after 
the Senate adjourns or recesses for the day. The Record is published in 
paperback form and online and is available to the public on the next 
business day.
    The Morning Business Coordinator is responsible for coordinating 
the printing of legislative and executive material in a portion of the 
Morning Business section of the Record and sits in the Senate Chamber, 
recording daily floor activity of the Senate for the Official Reporters 
of Debates.
                            parliamentarian
    The Office of the Parliamentarian continues to perform its 
essential institutional responsibilities to act as a neutral arbiter 
among all parties with an interest in the legislative process. These 
responsibilities include advising the Presiding Officer and Senators 
and their staff, as well as committee staff, House Members and their 
staff, administration officials, the media, and members of the general 
public, on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, and unanimous 
consent agreements, as well as provisions of public law and the 
Constitution that affect the proceedings of the Senate.
    The Parliamentarians work in close cooperation with Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate Floor. A parliamentarian is always present on the Senate 
Floor when the Senate is in session, ready to assist the Presiding 
Officer in their official duties, as well as to assist any other 
Senator on procedural matters. The Parliamentarians work closely with 
the President pro tempore and the Vice President of the United States 
and their staff when either performs duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep time on the Senate 
Floor when time is limited or controlled under the provisions of time 
agreements, statutes, or standing orders. They keep track of amendments 
offered to the legislation pending on the Senate Floor, assess them for 
germaneness and other possible points of order, and review countless 
other amendments that are never offered in the same regard.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate and all legislation received from the House, as well as all 
communications received from the Executive Branch, memorials from State 
and local governments, and petitions from private citizens. In order to 
perform this responsibility, the Parliamentarians do extensive legal 
and legislative research. The Office works extensively with Senators 
and their staff to advise them of the jurisdictional consequences of 
drafts of legislation, and evaluate the jurisdictional effect of 
proposed modifications in drafting.
    In 2016, in addition to day-to-day duties, the Parliamentarians 
continued work on the Electronic Senate Precedents (ESP) system; 
rewrote the Guide to Senate Floor Procedure; participated in or 
conducted several seminars on Senate procedure; reviewed certificates 
of election for Senators in the Class of 2017, ensuring that all 
necessary documents were received and in order for the opening of the 
new Congress; participated in orientation for new Senators and staff; 
and were heavily involved in the review, handling and preparation of 
materials and advising the Vice President of the Constitutional and 
statutory requirements for conducting the counting of electoral ballots 
for President and Vice President of the United States.

                          FINANCIAL OPERATIONS

                           disbursing office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective financial, payroll and employee benefits information, and 
advice to the offices, Members, and employees of the Senate. The 
Disbursing Office manages the collection of information from all the 
accounting locations within the Senate to formulate and consolidate the 
agency level budget, disburse the payroll, pay the Senate's bills, and 
provide appropriate counseling and advice. The Disbursing Office 
collects information from Members and employees that is necessary to 
maintain and administer the retirement, health insurance, life 
insurance, and other central human resource programs, and provides 
responsive, individual attention to Members and employees on an 
unbiased and confidential basis.
    In addition to the current FMIS program and the project to 
modernize the financial system, the Disbursing Office continued work on 
several activities that required a significant level of staff 
resources. Among them were (i) the initial distribution of new 
Employer-Provided Health Insurance Offer and Coverage forms (Forms 
1094-C and 1095-C) required by the Affordable Care Act, (ii) roll-out 
of online access to payroll and benefits information for Members and 
employees (including paystubs and W-2 Forms), (iii) the assistance to 
outgoing offices with financial and employee benefit information as 
well as retirement counseling, and (iv) the validation, review and 
publication of the Report of the Secretary of the Senate for the 6 
month periods ending in March and September 2016.
    The Disbursing Office also continued working with Member offices 
and the Senate Stationery Room to establish office accounts for the 
online flag ordering system using the Department of the Treasury's 
Pay.gov system. Sixty-four offices were using Pay.gov at the end of 
2016. The usage is expected to expand even further during 2017.
    In addition, the Disbursing Office compiled the 2017 operating 
budget of the United States Senate for presentation to the Committee on 
Appropriations and prepared and distributed budget justification 
worksheets to the various offices to gather the information needed for 
the fiscal year 2018 budget request and submission to the Office of 
Management and Budget.

                ADMINISTRATIVE AND EXECUTIVE OPERATIONS

                  senate chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act, which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), Senate offices became 
subject to the requirements, responsibilities and obligations of twelve 
employment laws, and subject to suit in Federal district court for 
alleged violations of such laws. In accordance with the CAA, Congress 
has applied subsequently enacted employment laws to Senate offices, 
such as the Genetic Information Non-Discrimination Act. Senate offices 
are also subject to certain non-CAA Federal laws that create compliance 
obligations regarding Senate employment.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels, from 
case inception through final appeal. In addition to litigating cases, 
the SCCE's attorneys provide legal advice to Senate offices about their 
obligations under employment laws. Each Senate office client is an 
individual client of the SCCE; accordingly, each such office maintains 
an attorney-client relationship with the SCCE. The SCCE also conducts a 
robust training program on a wide variety of employment law topics, 
including seminars to educate Senate managers, staff and interns about 
how to identify, prevent, and address unlawful harassment in the 
workplace.
    The areas of responsibilities of the SCCE can be divided into the 
following categories: litigation (defending Senate offices in courts 
and at administrative hearings); mediations to resolve potential 
lawsuits; court-ordered alternative dispute resolutions; Occupational 
Safety and Health Act compliance; Americans with Disabilities Act 
compliance; layoffs and office closings in compliance with the law; 
management training regarding legal responsibilities and employee 
rights; employee and intern training regarding prohibited harassment, 
including sexual harassment; union drives, negotiations, and unfair 
labor practice charges; and preventive legal advice.
                     conservation and preservation
    The Office of Conservation and Preservation supports the official 
record preservation and bookbinding needs of Senate leadership, 
committees, and offices.
    In 2016, the work of the Office included bookbinding, framing, and 
the fabrication of materials for presentation, storage, and display. 
Bookbinding included re-casing of older books, congressional hearings, 
and Congressional Record volumes with new covers and end sheets; 
repairing bound volumes of Senate Library collection materials; and 
preparing new volumes for binding from materials printed in-house at 
the request of Senate offices. The Office designed and fabricated 
custom boxes, enclosures, and slipcases for preservation and storage of 
materials and prepared objects and signage for display in Senate 
exhibits.
                                curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art (COA), develops and implements the museum and preservation programs 
for the Senate. The Curator collects, preserves, and interprets the 
Senate's fine and decorative arts, historic objects, and specific 
architectural features; and exercises supervisory responsibility for 
the historic chambers in the Senate wing of the Capitol under the 
jurisdiction of COA. Through exhibitions, publications, and other 
programs, the Curator educates the public about the Senate and its 
collections.
    In keeping with scheduled procedures, all Senate Collection objects 
were inventoried in 2016, and any changes in location were recorded in 
the Curator's database. As directed by S. Res. 178 (108th Congress, 1st 
session), the Office submitted a list of the art and historic 
furnishings in the Senate to the Committee on Rules and Administration. 
The list, known as the Historic Furnishings Inventory, documents the 
history of acquisition, use, and manufacturer for each object. Items on 
the inventory are prohibited from removal or purchase. The inventory, 
which is submitted every 6 months, is compiled by the Office with 
assistance from the SAA and the Architect of the Capitol's (AOC) 
Superintendent of Senate Office Buildings.
    The Office continued to advance the preservation and documentation 
of the historic Russell Senate Office Building furnishings by 
conducting a yearly inspection of the use and location of the 64 flat-
top partner desks that remain in the Senate, and through educational 
initiatives aimed at informing Senate staff about the history of the 
furnishings. This year, the Office acquired an original 1909 flat-top 
desk donated by the descendants of a former Senator. Following 
precedent, the desk was added to the Historic Furnishings Inventory and 
transferred to the AOC so that it could be refinished and made 
available for use.
    The Curator continued to conduct extensive primary source research 
into the original construction, configuration, and decoration of the 
Old Supreme Court Chamber in anticipation of the planned restoration of 
the space. The Curator also completed the restoration and 
electrification of an 1859 Cornelius & Baker six-arm chandelier. Over 
145 similar chandeliers illuminated the Senate extension in the 1860s.
    Twenty-eight objects were accessioned into the Senate Collection 
this year. The most significant addition was the donation of History 
and Physics, two oil sketches by Constantino Brumidi. These small 
preparatory studies were executed in the mid-1860s as proposed 
decorations for two lunette frescoes in room S-211 in the Capitol (the 
Lyndon Baines Johnson Room).
    A new exhibit was installed by the Curator into showcases in the 
vestibule outside SD- G50, titled: Who Was Everett McKinley Dirksen? 
The exhibit highlights the career and accomplishments of the Dirksen 
Building's namesake and was created in conjunction with the Senate 
Library and Senate Historical Office. The Curator also installed an 
interpretative exhibit in the Trophy Corridor of the Senate wing of the 
Capitol to highlight the recently installed historic Cornelius & Baker 
chandelier.
                         education and training
    The Joint Office of Education and Training, co-sponsored by the 
Secretary of the Senate and the SAA, provides training to ensure that 
all Senate staff have the resources and skills they need to perform 
their jobs. In 2016, nearly 3,000 staff attended in-person classes and 
nearly 1,200 staff attended online classes. The Office also facilitated 
three conferences for 137 State staff, and provided customized 
training, facilitation services, and coaching to more than 150 Member, 
committee, and support offices, in which more than 2,000 staff members 
participated.
    This year the Office plans to expand leadership development 
offerings, provide training for the Academy Nomination Coordinators, 
and coordinate continued training for the Chiefs of Staff and 
Administrative Directors in the New Member offices.
    The Health Promotion Office within Education and Training is 
mandated to provide health promotion activities and events for the 
Senate community. Each year the Office coordinates and hosts the 2-day 
Health and Wellness Fair. In 2016, over 2,000 staff participated in 
health promotion activities, which included screenings for glucose, 
cholesterol and blood pressure; exercise demonstrations, and seminars 
on topics including healthy eating and cancer prevention.
                               gift shop
    The Gift Shop serves Senators and their spouses, staff, 
constituents, and the many visitors to the Capitol complex. The 
products available include a wide range of fine gift items, 
collectables, and souvenirs, many created exclusively for the Senate.
    In addition to over-the-counter and walk-in sales, the Gift Shop 
offers an order form through Webster and the administrative office 
provides mail order service, special order and catalogue sales. While 
the Gift Shop has two physical locations, the Capitol kiosk remains 
temporarily closed due to the continued restoration of the Brumidi 
corridors.
    Consistent with statute and past practice, a transfer of $40,000 to 
the Senate Employees Child Care Center was made based on the annual 
sales of the Congressional Holiday Ornament (see 2 U.S.C. 6576(c)(3)). 
The Official 2016 Congressional Holiday Ornament is a brass ornament 
with 24 karat gold finish that showcases the exterior of the Capitol. 
The ornament has two hinged doors which open to reveal the Rotunda. 
Sales of the 2016 holiday ornament were just over 25,000, of which more 
than 8,000 were personalized with engravings designed, proofed, and 
etched by the Gift Shop staff.
                           historical office
    In 2016 historians and archivists of the Senate Historical Office 
continued to serve the Senate and the broader community through a 
variety of activities, including archival assistance and guidance, 
tours and presentations, publications, reference assistance, and 
educational outreach programs. In addition, while the Secretary served 
as Chair of the Advisory Committee on the Records of Congress the 
Senate Archivist facilitated the semiannual meetings and related 
discussions of the Advisory Committee.
    The Historical Office has provided more than 50 specially-requested 
talks and tours to Senate offices, answered more than 1,000 history-
related questions via email from staff, public, and press, and drawn 
standing-room-only audiences to a series of ``brownbag lunch'' history 
talks. In September the Office observed Constitution Day with ``A More 
Important Duty: Standing Committees and the Senate's Constitutional 
Powers and Responsibilities.'' This program filled the Kennedy Caucus 
Room with Senate staff, high school students, and visitors who explored 
four archival exhibits while learning more about the important role of 
committees in Senate history.
    The Senate Archivist and deputy archivists assisted the offices of 
retiring Members in selecting an archival repository, in preserving the 
Senator's digital and paper content, and in identifying committee 
records needing preservation. For the first time, retiring Members were 
able to select the Senate Data Information Exchange Format for the 
download of their Constituent Services System (CSS) data, something 
which archival repositories had been hoping to receive and which the 
archivists accomplished through collaboration with SAA CSS staff.
    Senate Rule XI (2) directs that ``The Secretary of the Senate shall 
obtain at the close of each Congress all the noncurrent records of the 
Senate and of each Senate committee and transfer them to the National 
Archives for preservation.'' During 2016 the Senate transferred 720 
cubic feet of paper records and 4.56 TB of electronic records to the 
Center for Legislative Archives (CLA). Archivists have prioritized 
creation of electronic records preservation guidance for committees and 
have incorporated the new guidance into a draft of the 4th edition of 
the Records Management Handbook for United States Senate Committees. To 
further assist Senate Committees, the archivists provide electronic 
records processing support to committees without their own archivists 
and have instituted the use of processing tools to further enhance the 
authenticity of electronic records being transferred to the CLA.
    In fulfilling its mission to preserve and promote the history of 
the Senate, the Office pursues many long-term research and writing 
projects, conducts oral history interviews, and is a primary content 
provider for Senate.gov. For example, in anticipation of the centennial 
commemoration of the nineteenth amendment in 2020, the historians have 
launched a special oral history project, conducting interviews with 
former and current female Senators and select female staff. These 
interviews document the evolving role of women in the Senate and their 
impact on the institution and its legislative business.
                            human resources
    The Office of Human Resources was established in June 1995 by the 
Secretary of the Senate as a result of the CAA. The Office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Office of the Secretary. These responsibilities 
include recruiting and staffing; providing guidance and advice to 
managers and staff; training; performance management and evaluation; 
job analysis and classification; compensation planning, design, and 
administration; leave administration; records management; maintaining 
the employee handbook and manuals; employee relations and services; and 
organizational planning and development.
    The Office administers the following programs for the Secretary's 
employees: the public transportation subsidy program, student loan 
program, Family Medical Leave Act program, parking allocations, and the 
Secretary's intern program.
                          information systems
    The Office of Information Systems provides technical hardware and 
software support for the Office of the Secretary. Information Systems 
staff also interface closely with the application and network 
development groups within SAA, GPO, and outside vendors on technical 
issues and joint projects. The Office provides computer-related support 
for all local area network (LAN) servers within the Office of the 
Secretary, as well as direct application support for all software 
installed on workstations, initiates and guides new technologies, and 
implements next generation hardware and software solutions.
    The primary mission of the Office is to continue to provide the 
highest level of customer satisfaction and computer support for the 
Office of the Secretary. Emphasis is placed on creating and 
transferring legislative records to outside departments and agencies, 
fulfilling Disbursing Office financial responsibilities to Member 
offices, and complying with office-mandated and statutory obligations.
                      interparliamentary services
    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for special 
delegations authorized by the Majority and/or Minority Leaders, for all 
interparliamentary conferences in which the Senate participates by 
statute, and for interparliamentary conferences in which the Senate 
participates on an ad hoc basis. The Office also provides appropriate 
assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are: the Mexico-United 
States Interparliamentary Group; the Canada-United States 
Interparliamentary Group; the British-American Interparliamentary 
Group; and the United States-China Interparliamentary Group.
    On behalf of the Senate Majority and Minority Leaders, the staff 
arranges official receptions for heads of state, heads of government, 
heads of parliaments, and parliamentary delegations. Required records 
of expenditures on behalf of foreign dignitaries under authority of 
Public Law 100-71 are maintained by IPS.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the Majority Leader 
and the Minority Leader, IPS staff also assists staff members of 
Senators and committees in filling out the required reports.
          legislative information system (lis) project office
    See the section on the LIS Project on page 8.
                                library
    The Senate Library, which celebrated its 145th year of service in 
2016, provides legislative, legal, business, and general information 
services to Senators and staff. The Library's collection encompasses 
legislative documents that date from the Continental Congress in 1774; 
current and historic Executive and Judicial Branch materials; an 
extensive book collection on American politics, history, and biography; 
a popular collection of audiobooks; and a wide array of online 
resources. The Library also authors content for three websites: 
LIS.gov, Senate.gov, and Webster.
    The reference librarians work with Senate staff on a wide range of 
research topics, including legislative histories, legal citations, 
public records, and news article searches. They are experienced 
information professionals who draw on in-depth knowledge of Senate 
institutional procedures and practices when answering reference 
questions, and in 2016, they handled requests from all 100 Senate 
offices and every standing committee. There were over 10,700 walk-in, 
telephone, and email inquiries, many of which were handled on tight 
deadlines.
    The Library is meeting the Senate's increasing demand for 
information through the creation of new web-based content, judicious 
selection and investment in online resources, expanded outreach and 
training opportunities, and use of technology to support alternative 
means for information delivery. Senate librarians also teach a variety 
of classes for Senate staff.
    The Library catalog now provides Senate staff with desktop access 
to over 48,000 full- text electronic documents and online resources. A 
3-year collaborative effort to update nearly 8,500 obsolete series 
statements in existing catalog records was completed in January, 
resulting in improved access to Senate prints, publications, treaty 
documents and Federal Government documents.
    The inaugural edition of the Library's biweekly email newsletter 
was launched in December 2016. The newsletter highlights upcoming 
Library training classes, featured resources, and services. It is 
distributed to Senate staff who use one or more Library service and to 
administrative managers and committee clerks. The newsletter has been 
well received, with requests from staff to be added to the distribution 
list for future editions.
    The Library presented exhibits and events relevant to the Senate 
community. These included two new hallway displays: A Tour of African 
American Landmarks & Historical Sites in Washington, D.C., to 
commemorate African American History Month, outside SR-B15, and Who Was 
Everett McKinley Dirksen?, outside SD-G50. The Dirksen exhibit is the 
result of the joint efforts of the Library, the Office of the Senate 
Curator, the Senate Historical Office, and the Office of Conservation 
and Preservation.
                              page school
    The Senate Page School serves all appointed Senate pages with a 
sound program, both academically and experientially, during their stay 
in the Nation's capital. Senate pages are all juniors or rising juniors 
in high school and the School ensures the appropriate continuation of 
their studies integrated into the schedule of the page program in the 
Senate. The School focuses on providing a smooth transition from and to 
the pages' home schools.
    In 2013, the Middle States Commission on Secondary Schools awarded 
accreditation renewal that continues until May 1, 2018. The Page School 
is among schools throughout the world that meet the internationally 
recognized standards of quality.
    Faculty and staff provided extended educational experiences to 
pages, including 21 field trips, 5 guest speakers, and opportunities to 
study world languages. A panel of former pages also provided 
information and answered current pages' questions. Summer pages made 
four field trips to educational sites and heard from one guest speaker. 
The community service project embraced by pages and staff continues. 
Pages collected, assembled, and shipped items for gift packages to 
military personnel serving in various locations and included letters of 
support to the troops.
                     printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to GPO for the Senate's official printing, ensuring that all 
Senate printing is in compliance with Title 44 of the U.S. Code as it 
relates to Senate documents, hearings, committee prints and other 
official publications. The Office coordinates, schedules, delivers and 
prepares Senate legislation, hearing documents, committee prints and 
miscellaneous publications for printing, and provides printed copies of 
all legislation and public laws to the Senate and the public. In 
addition, the Office assigns publication numbers to all hearings, and 
committee prints, as well as legislative documents and other 
publications; orders all blank paper, envelopes and letterhead for the 
Senate; and prepares page counts of all Senate hearing transcripts in 
order to compensate commercial reporting companies for the preparation 
of the transcripts.
    During fiscal year 2016, OPDS prepared 2,217 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. In addition to processing 
requisitions, the printing services section coordinates proof handling, 
job scheduling and tracking for stationery products, Senate hearings, 
Senate publications and other miscellaneous printed products, as well 
as monitoring blank paper and stationery quotas for each Senate office 
and committee. Examples of major printing projects are: the Report of 
the Secretary of the Senate; the Congressional Directory, 115th 
Congress; the Authority and Rules of Senate Committees; the Journal of 
the Proceedings of the Senate, 114th Congress, 1st Session; and 58th 
Presidential Inaugural materials.
    During 2016, OPDS processed and distributed over 6,600 distinct 
legislative items as well as fulfilled over 10,000 requests for 
legislative material at the walk-in counter, by mail, fax, and 
electronically. The Office produced 853 on-demand print jobs during 
2016, and continues to monitor and adjust the number of documents 
received from GPO to meet demand while eliminating waste. Online 
ordering of legislative documents and the Legislative Hot List Link, 
where Members and staff can confirm arrival of printed copies of the 
most sought after legislative documents, continue to be popular. The 
site is updated each time new documents arrive from GPO to the Document 
Room.
                             public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act (FECA), as 
amended; the Lobbying Disclosure Act (LDA) of 1995, as amended; the 
Senate Code of Official Conduct; Rule 34, Public Financial Disclosure; 
Rule 35, Senate Gift Rule filings; Rule 40, Registration of Mass 
Mailing; Rule 41, Political Fund Designees; and Rule 41(6), 
Supervisor's Reports on Individuals Performing Senate Services; and 
Foreign Travel Reports. The Office works closely with the Federal 
Election Commission (FEC), the Senate Select Committee on Ethics, and 
the Clerk of the House concerning the filing requirements of the 
aforementioned acts and Senate Rules.
    From October 2015 through September 2016, Public Records staff 
assisted over 10,000 individuals seeking information from or about 
reports filed with the Office, responding to walk-in inquiries and 
inquiries by telephone or e-mail. Further, the Office provided 
assistance to individuals attempting to comply with the provisions of 
the LDA.
    The LDA requires semiannual contribution reports, and quarterly 
financial and lobbying activity reports. The Office conducted an LDA 
Guidance review in coordination with the Clerk of the House. As of 
September 30, 2016, there were 4,439 registrants representing 16,455 
clients. The total number of individual lobbyists disclosed on fiscal 
year 2016 registrations and reports was 11,406. The total number of 
lobbying registrations and reports processed was 105,499. The Office 
referred 140 cases of potential noncompliance to the U.S. Attorney for 
the District of Columbia.
    FECA requires Senate candidates to file quarterly and pre- and 
post-election reports with the Secretary of the Senate. Filings for 
fiscal year 2016 totaled 4,816 documents containing 468,246 pages, 
which were scanned, processed, and transmitted to the FEC, as required 
by law.
    The filing date for Public Financial Disclosure Reports was May 15, 
2016. A total of 4,501 paper and e-filed reports and amendments were 
filed. The reports were made available to the public and press as soon 
as they were filed and processed, and in most cases, the same day. 
Public Records staff provided copies to the Ethics Committee and the 
appropriate State officials.
    Senators are required to file mass mailing reports on a quarterly 
basis. The number of pages submitted during fiscal year 2016 was 350. 
In addition, the Office received 752 Gift Rule/Travel reports during 
fiscal year 2016.
                            stationery room
    Since it was formally established in 1854, the Senate Stationery 
Room has evolved into a diversified retail outlet serving the needs of 
the Senate community by providing a wide range of office and 
administrative supplies, communication and computer accessories, and 
special order items for official government business.
    The Stationery Room fulfills its mission by utilizing open market, 
competitive bid, or General Services Administration schedules for 
supply procurement; maintaining sufficient in-stock quantities of 
select merchandise to best meet the immediate needs of the Senate 
community; developing and maintaining productive business relationships 
with a wide variety of vendors; maintaining expense accounts for all 
authorized customers and preparing monthly activity statements; and 
managing all accounts receivable and accounts payable reimbursement.
    Utilizing the Pay.gov service offered by the Department of the 
Treasury, the Stationery Room has been accepting online flag requests 
and payments from constituents through Member websites. Currently, 64 
Member offices are offering this payment option and 22 offices are in 
the beginning stages of the program. The benefits include a reduced 
wait time for constituents, elimination of payment inaccuracies, and 
greatly reduced workload for office representatives. The Stationery 
Room will continue to expand this service to interested Member offices.
    The Stationery Room, with the assistance of the Office of Web 
Technology, upgraded its online web ordering portal through Webster. 
The upgrades included an enhanced search engine, modernized layout, 
improved images of items and easier checkout. Customers can place a 
stock order online and the order will be delivered within 24 hours. Use 
of the website helps reduce order time, increases customer convenience 
and order accuracy, and reduces the use of paper through reduced 
reliance on hard copy orders. Since the upgrade in September 2016, 387 
orders have been placed using the website compared to 190 total orders 
for the entire fiscal year 2016 prior to the upgrade.
    The Stationery Room contracts annually with various vendors to 
provide U.S. flags. The flags are purchased by constituents through 
individual Member offices, and are flown over the U.S. Capitol Building 
for commemoration of special occasions. While many flags are flown for 
specific reasons, the Stationery Room sells pre-flown flags for offices 
to meet those generic requests. The Stationery Room coordinates its 
flag procurement program with the Capitol Visitor Center, offering both 
entities the benefits of greater volume discounts where available.
                             web technology
    The Office of Web Technology is responsible for Senate.gov, the 
Secretary's intranet on Webster, portions of the central site of 
Webster, and legbranch.senate.gov (an extranet site available to all 
Capitol Hill entities), along with the web-based systems, servers, and 
technologies supporting these websites that fall under the purview of 
the Secretary of the Senate.
    Senate.gov content is maintained by over 30 contributors from seven 
departments of the Office of the Secretary and three departments of 
SAA. All content is controlled through the Secretary's web content 
management system, managed by the Office of Web Technology.
    A refreshed version of www.senate.gov launched in March 2017 
completing a 2 year project to offer a new and better opportunity for 
audiences to interact with the wealth of information provided on the 
central site. The updated site is clean, modern, and has a responsive 
design which optimizes the site's presentation on any accessing device, 
such as mobile phones or tablets. Greater ability to contact Senators, 
view live and archived Senate Floor proceeding streams, and conduct 
searches on the central site are a few of the enhancements.
    Senate.gov has been transitioned to secure sockets (https). This is 
the new best practice for websites and the transition of the central 
site serves as an example for other Senate sites. Although no personal 
information is collected on the central site (when https is most 
strongly recommended) the change will help ensure the central site 
remains at or near the top of search results.
    The Office also worked extensively with the Office of the Bill 
Clerk, the Office of the Executive Clerk, the Senate Library and LOC in 
the refinement of Congress.gov and the dissemination of legislative 
bulk data, allowing for increased accuracy and transparency of 
Congressional information. Part of these processes involved expanding 
legbranch.senate.gov to host newly generated data feeds for the 
Congressional community and will likely be further expanded in the 
incoming year.
    In 2016 an average of 27,425 visits occurred per day to the central 
site of Senate.gov. The Office responded to nearly 700 emails from the 
general public regarding Senate.gov sites.

             EMERGENCY PREPAREDNESS AND CONTINUITY PLANNING

    Throughout 2016, the Office of the Secretary continued to exercise, 
maintain and develop a broad range of emergency preparedness and 
continuity programs under the direction of Senate leadership and in 
coordination with SAA, House Officers, U.S. Capitol Police, and 
partners in the Executive and Judicial Branches. The primary objectives 
in this area are to ensure the continuity of the legislative process, 
and that the Senate can meet its constitutional obligations under any 
circumstances.
    The Secretary's Legislative staff and supporting offices maintain 
and regularly exercise plans to ensure that the Senate can convene and 
conduct legislative business under any conditions in various locations. 
All other departments maintain plans to carry out their essential 
functions, either locally or elsewhere, depending upon conditions.
    All departments within the Office of the Secretary maintain 
individual COOP plans to ensure that each department can carry out its 
essential functions during an emergency. Last year, several departments 
within the Office developed a new program to create and maintain 
departmental COOP plans. The project was undertaken and completed 
entirely with in-house resources, and replaces a previously-used 
commercial product, resulting in an annual savings of more than 
$20,000.
    Across the Office of the Secretary, monthly drills and annual 
exercises are conducted in order to ensure that plans are current, and 
that staff understand their continuity responsibilities. All 
departmental plans are supported by emergency supply kits stored in 
multiple locations within and outside the District of Columbia. 
Finally, the Secretary's Legislative departments, as well as several 
others, continue to employ robust cross-training programs initiated in 
prior years, to ensure that staff with critical skills will be 
available in an emergency.
                              ----------                              


                       NONDEPARTMENTAL WITNESSES

    Prepared Statement of the American Association of Law Libraries
    Dear Chairman Lankford, Ranking Member Murphy, and Members of the 
subcommittee:

    Thank you for the opportunity to submit written testimony in 
support of two key Federal institutions funded by the Legislative 
Branch Appropriations Subcommittee: the Government Publishing Office 
(GPO) and the Library of Congress (LC). The American Association of Law 
Libraries (AALL) works closely with these agencies to support their 
missions, and our members rely on their leadership in providing access 
to and preservation of legal information and other materials.
    AALL is the only national association dedicated to the legal 
information profession and its professionals. Founded in 1906 on the 
belief that people--lawyers, judges, students, and the public--need 
timely access to relevant legal information to make sound legal 
arguments and wise legal decisions, its nearly 4,500 members are 
problem solvers of the highest order. AALL fosters the profession by 
offering its members knowledge, leadership, and community that make the 
whole legal system stronger.
    Under the leadership of GPO Director Davita E. Vance-Cooks and 
Librarian of Congress Carla D. Hayden, GPO and LC are transforming 
themselves into modern agencies for the digital world. We urge members 
of the subcommittee to support the agencies' fiscal year 2018 budget 
requests in full.
                      government publishing office
    The Government Publishing Office produces, authenticates, 
disseminates, and preserves government information in multiple formats 
from all three branches of government. We urge the subcommittee to 
fully fund each account within GPO's request.
    The Congressional Publishing request will ensure support for the 
publication of Congressional materials, which law libraries use to 
provide access to trustworthy legal information in print and online. 
Some users, such as law professors, students, self-represented 
litigants, and members of the public prefer the print for its ease of 
use and the ability to skim the index and flip to specific pages. Thus, 
the nearly 200 law libraries in the Federal Depository Library Program 
(FDLP) must continue to have the option of receiving these materials in 
print.
    The Public Information Programs account supports the centuries' old 
FDLP. FDLP libraries, including the 18 in Oklahoma and 18 in 
Connecticut, provide geographically convenient access to government 
information from all three branches of government in print and online. 
We are pleased with GPO's efforts to introduce greater flexibility into 
the depository program to allow more libraries to participate or 
continue their participation. As we note above, many law libraries 
continue to rely on GPO for distribution of specific tangible 
materials, especially core legal titles in print.
    We appreciate GPO's recent digitization initiatives and 
partnerships with the Library of Congress and National Archives and 
Records Administration. The digitization projects provide access to the 
historical Federal Register and Congressional Record, opening up a 
treasure for researchers and the general public. We urge the Committee 
to support additional digitization projects and the preservation of 
documents in the FDLP collection. We also commend GPO for actively 
participating in the House's Bulk Data Task Force and the Committee on 
House Administration's annual Legislative Data Transparency Conference.
    AALL supports GPO's request for funding for the continued 
development of govinfo.gov, currently in beta. Every day, AALL members 
rely on access to the official, authentic government information in the 
new govinfo and in the Federal Digital System (FDsys), which govinfo 
will eventually replace. We appreciate the inclusive process GPO took 
in involving law librarians in the development of govinfo, and our 
members are pleased with the new site. We also support GPO's efforts to 
seek certification of FDsys/govinfo as a Trusted Digital Repository. 
Once certification is complete, GPO will be first Federal agency with 
this designation.
                          library of congress
    The Library of Congress has enjoyed increased public attention this 
year under the leadership of new Librarian of Congress Carla D. Hayden. 
Thanks to Dr. Hayden's leadership, LC is investing in its technology, 
digitizing historically significant collections, and updating the 
Library's technology infrastructure. We strongly urge the Committee to 
fully fund the Library's fiscal year 2018 request.
    Our association was pleased to welcome new Law Librarian of 
Congress Jane Sanchez earlier this year. Members of AALL know Ms. 
Sanchez from her many years in the library community, including as 
director of Library Services and Content Management at GPO. We believe 
Ms. Sanchez is well-suited for the Law Librarian position and look 
forward to working with her in her new role.
    The Law Library of Congress is responsible for providing access to 
trustworthy legal materials in print and electronic formats. Its 
collections are exceptional, and must be preserved. In fact, 70 percent 
of the Law Library's collection is unique. We thank the subcommittee 
for its support of funding for Law Library compact shelving as part of 
the fiscal year 2017 omnibus bill. The replacement of the outdated and 
hazardous shelving units has been a priority for both the Law Library 
and AALL. If the Library's compact shelving is not working properly, 
then materials cannot be accessed and there is a greater chance of 
loss.
    We commend LC for its development of Congress.gov. The Law Library 
has recently expanded the number of legal resources available via 
Congress.gov, and has seen a tremendous jump in traffic. AALL believes 
this demonstrates the public's interest in accessing official, 
authoritative sources of government information. We also support the 
Law Library's digitization efforts and its work to provide greater 
access to legal materials online.
    Finally, we support the excellent work of the Congressional 
Research Service (CRS), and urge Congress to provide public access to 
its unclassified, non-confidential reports. The public has a strong 
interest in CRS reports. Many organizations and websites already make 
thousands of reports freely available online, and commercial third-
party services offer the reports for a fee. The popularity of these 
sites demonstrates the public's desire for access to these essential 
reports. Members of the public need access to up-to-date, reliable 
information in order to understand the important policy issues before 
Congress and to participate in the democratic process.
                               conclusion
    AALL thanks the subcommittee for the opportunity to provide written 
testimony. If we can provide additional information or assistance, 
please contact AALL's Director of Government Relations Emily Feltren at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="325754575e4640575c7253535e5e1c5d40551c">[email&#160;protected]</a>

    [This statement was submitted by Ronald E. Wheeler Jr., President.]
                                 ______
                                 
                Prepared Statement of Civic Impulse, LLC
    Dear Members of the subcommittee:

    Each year ten million individuals use our free website 
www.GovTrack.us to research and track legislation in the U.S. Congress. 
Our users include journalists, legislative affairs professionals at 
small businesses and Federal and State agencies, legislative staff on 
the Hill, advocates, teachers, students, and of course member of the 
general public. This testimony is submitted on their behalf.
    Public access to legislative information ensures that accurate 
information about legislation, votes, and other activities of the 
Congress reaches the American public?. It's not about playing gotcha. 
Our users are professionals who have a job to do, including your staff, 
and our users are also regular Americans who also feel they have a job 
to do, that is, to vote in elections, to stay informed, and for some, 
to learn what it takes to become a future senator. At Civic Impulse 
LLC, our job is to take the official record, from you, and bring that 
to the widest audience we can, and to teach them how the Congress 
really works so their relationship with you is a meaningful one.
    I would like to begin by commending the subcommittee for its 
support of important programs in the last several years:
  --The Bulk Data Taskforce's legislative bulk data program, which went 
        live in 2016 and was a joint effort of the Senate, the 
        Government Publishing Office, the Library of Congress, and the 
        Clerk of the House has allowed us to disseminate the most 
        accurate information yet about the status of pending 
        legislation.
  --Improvements to the Senate's website, which has made it easier for 
        the public to learn about the Senate, including the use of 
        HTTPS to protect Senate web pages and data from eavesdropping 
        and alteration.
  --The launch of Congress.gov by the Library of Congress, and its 
        agile-lead improvements since its launch, which is an example 
        for the whole legislative branch in how best to develop modern 
        technology.
  --Digitization and publication of core historical documents by the 
        Government Publishing Office and Library of Congress, including 
        the Congressional Record, Statutes at Large, and Constitution 
        Annotated (though more work is needed here).
    I also commend the staff at the offices and legislative branch 
agencies named above who have done remarkable work in producing 
accurate, durable, and timely information within the constraints that 
an institution like the Senate requires.
    To continue the subcommittee's commitment to public access to 
legislative information, I respectfully recommend the following:
  --Create a public advisory committee on legislative transparency for 
        stakeholders to engage systematically on this issue, including 
        but not limited to access to data.
  --Continue participating in the bicameral Bulk Data Taskforce effort 
        and fund the participation of the offices and agencies that are 
        members of the taskforce.
  --Support congressional publication of other important information in 
        a structured data format, including Senate floor amendments, 
        committee votes, and disbursements.
  --Cultivate the legislative branch's in-house technology talent as 
        other parts of the government are doing and use technology to 
        better connect senators with their constituents.
  --Increase Senate staff levels above Congress's current historic lows 
        so the Senate has sufficient capacity for policy analysis, 
        oversight, and constituent services and direct the 
        Congressional Research Service to report on on how staffing 
        levels impact the legislative branch's capacity to function, 
        and make that report public.
  --Systematically release non-confidential Congressional Research 
        Service reports to the general public. Years of experience has 
        demonstrated that public access to these reports enhances the 
        public debate without creating a commensurate burden.
    I would be glad to discuss these topics further and tell you more 
about how the work of the Senate on public access to legislative 
information translates into a stronger democracy.

    [This statement was submitted by Joshua Tauberer, Ph.D., President, 
Civic Impulse, LLC.]
                                 ______
                                 
 Prepared Statement of the Congressional Research Employees Association
    I write as President of the union representing nearly 500 non-
supervisory employees of the Congressional Research Service (CRS). The 
Congressional Research Employees Association (CREA) is one of three 
unions covering Library of Congress employees. My other role at the 
Library is as Specialist in Drug Safety and Effectiveness in the 
Domestic Social Policy Division, one of six research divisions, which, 
along with five administrative offices, make up the Congressional 
Research Service.
    In my 15-month tenure in office, I have worked to build trust 
between CREA and three key groups: bargaining unit employees, CRS 
management, and Library management. My work at building those 
relationships with congressional committees and their staff is in its 
early stage. I look forward to sharing CREA's concerns with you--and 
learning yours. My hope is that we can explore approaches to resolving 
or avoiding obstacles that impede the functioning of CRS and the 
Library. Thank you for accepting this testimony for the record.
    In the context of this subcommittee's focus on fiscal year 2018 
appropriations, I offer comments on four topics:
  --IT centralization across the Library,
  --involvement of staff in CRS and Library policy consideration,
  --workplace concerns, and
  --CRS mission.
                           it centralization
    A time-sensitive topic is how the Library is going about its move 
into information technology (IT) centralization. We do not necessarily 
oppose centralization; we have concerns about how it might be 
structured.
    What prompts our concern is that while CREA has proposed including 
non-management perspectives and interests in the Library's initiative 
to centralize IT resources, authority, and operations, the Library's 
Chief Information Officer (CIO) and Human Resources Services 
management, which includes labor relations, have denied our requests.
    The Library has contracted with a consultant to recommend several 
centralized organizational structures. Because that report may strongly 
influence management's decisions, we believe employee union access to 
the consultant is essential. The Library has denied the unions access 
to the consultant and to internal planning discussions.
    My hope in bringing our concerns to the subcommittee is that you 
encourage the Librarian and the Chief Information Officer to
  --engage with non-supervisory employees as they assess how best to 
        centralize responsibility for the effective and efficient 
        functioning of IT services for the Library and CRS in 
        particular,
  --inform employees (via their unions) which tasks the Library 
        assigned to the contractor,
  --modify the consultant's task assignment to include interviews with 
        the three unions, and
  --make sure that the contractor interviews managers (and non-
        managers) in a way that makes interviewees feel safe in 
        expressing opinions that may not coincide with those of their 
        supervisors.
    The CRS Office of Information Management and Technology provides 
seemingly instant help for CRS employees whose work directly supports 
Congress--a level of timeliness not available to other Library units. 
Although leadership says mission-critical activities would be 
maintained, would a centralized management lead to an averaging of 
resources and attention across Library units? Even if Library 
management didn't take resources away from CRS, would it allow CRS's 
technological abilities growth to stagnate while Library management 
concentrated on improving IT in other units?
    I've been told that CRS uses different platforms and programs than 
the rest of the Library. Although there may be instances where 
consolidating work or functions makes sense, there are many others 
where CRS has developed approaches that serve the mission-specific 
needs that Congress expects and requires of us, including 
confidentiality, security, and timeliness. Who would be responsible for 
protecting that?
      involvement of staff in crs and library policy consideration
    In addition to IT centralization, the Library and CRS are missing 
other opportunities to take advantage of the expertise and policy 
experience that Members and committee of Congress rely on every day: 
CRS's own staff.
    If a congressional committee wanted to figure out the best way to 
reorganize a cabinet department, it could call the CRS experts in the 
Government & Finance Division; if planning a program to coordinate 
emergency services and financing after a natural disaster, a Member 
could call the CRS experts in my Domestic Social Policy Division. Yet 
the Library and CRS have been slow to engage their own experts and the 
union that represents them in policy considerations.
    A CRS example: When CRS revised its policy on confidentiality in 
2015, it issued the final version without first discussing the 
objectives and procedures with the staff who respond to congressional 
requests and protect the confidentiality of requesters and the matters 
that we discuss with them. The objectives of the policy--which I 
believe we share--may be endangered by procedures and restrictions that 
do not serve the interests of Congress. After over a year of discussing 
this disconnect between CRS management and the practical knowledge of 
the employees who do the work the policies address, CRS management and 
CREA are now moving into a better approach. While bargaining unit 
employees are still not included in policy working groups, CRS now 
posts its final drafts and invites comments from all staff. I hope this 
approach yields final policy documents that put forth not only 
appropriate goals but also feasible procedures that support them.
    A Library example: This week nine ``tiger teams'' began work as 
part of the Library's strategic planning activities. The Library did 
not invite the unions to participate. Neither did it inform us of this 
activity. Did the Librarian's Office choose to not include the unions? 
Or did it not even think to consider our participation?
    We like that the Librarian routinely gives kudos to the Library's 
staff. Now, we are ready to share our ideas and energy with her and her 
leadership team.
                           workplace concerns
    Although CRS came out well on many measures in the most recent 
Federal Employees Viewpoint Survey (FEVS), the survey also revealed 
several areas where CRS staff saw problems and wanted change. The CRS 
Director has taken some steps--such as setting up advisory groups--to 
address widespread concerns about communication and diversity and 
inclusion.
    However, she has not engaged in areas that, based on reports from 
staff and our own observations, CREA knows there are pockets extreme 
discontent within CRS. We were hoping that FEVS data could corroborate 
those problems so that management and CREA could work to improve 
employee morale and repair the group's functioning. We see how those 
problems impede CRS's ability to provide Congress with objective, 
authoritative, and timely analysis. Despite our concerns, CRS 
management has refused to share division-specific results with staff or 
CREA.
    Would the subcommittee please consider urging CRS to provide 
division-specific FEVS results to CREA? That tool, while maintaining 
individual employees' confidentiality, could help us--and CRS--focus on 
these problems.
                              crs mission
    In the Library's fiscal year 2018 budget request, CRS proposes 
hiring GS-11 ``junior analysts'' in time-limited positions, saying, 
``The junior analyst model is more flexible and cost-effective in 
providing expertise in areas that may only be in demand for a short 
period of time. The junior analysts would gain experience that may 
result in opportunities for permanent positions should they arise from 
attrition and succession planning.''
    The CRS tradition--backed by many Congresses--has been to provide 
comprehensive information and analytic support to Members and 
committees. Our GS-15 specialist positions assert one is ``a national 
expert.'' We may ``apply new hypotheses and concepts to intractable 
problems; define or clarify issues; synthesize complex variables from 
several disciplines; assess political and institutional constraints; 
organize and present policy options and analyze their consequences; and 
anticipate the direction of policy questions.'' That's quite a skill 
set.
    Two recent trends--the retirement of our specialists and budget 
constraints--are, bit by bit, limiting the scope and depth of CRS 
expertise. The CRS proposal for the new position of temporary junior 
analyst is an attempt to find new ways to respond to congressional 
needs. That may help in the short term. But it moves the full coverage 
that Congress has enjoyed and expected farther out of reach each year.
    The CRS proposal would change the promotion potential of new hires 
and change the mix of staff. We do not want to defensively oppose a 
management proposal because it might adversely affect some of our 
bargaining unit members. We note, however, that Congress has 
appreciated and depended upon the wide-ranging and in-depth expertise 
CRS staff make available. How do we find ways to maintain that cadre of 
expertise and experience in just about every area Congress considers?
    We in CREA want to analyze the problem, consider the solution 
management has put forth, and, using the skills for which you value us, 
look for options that best serve the needs of all involved. Just as a 
congressional committee LA talks to industry, academic, and consumer 
groups in forming a position, so too does CREA suggest CRS do as it 
considers staffing patterns. Our mid-level managers may contribute 
useful observations, but may not know the extent or rhythm of how we 
assist Congress. Ask us.
    If you are working with the Library and CRS leadership to tackle 
questions of scope, quality, and cost in the future of CRS, I ask that 
you include CREA in those discussions. If you are not currently working 
on those topics, I urge you to begin and to include CREA.
    Thank you for this opportunity to offer my thoughts. I, along with 
my CREA officer team, look forward to constructive conversations with 
CRS, the Library, and you.

    [This statement was submitted by Susan Thaul, Ph.D., President.]
                                 ______
                                 
                Prepared Statement of the Data Coalition
    Chairman Lankford, Ranking Member Murphy, and Members of the 
Committee: Thank you for this opportunity to provide written testimony 
on behalf of the Data Coalition regarding the modernization of the 
legislative branch of our government.
    The Data Coalition was founded in 2012. We represent 36 technology 
and consulting companies, employing over 200,000 Americans. Fourteen of 
our members are startups founded within the last decade and ten are 
public companies. All of our member companies support the publication 
of government information as machine-readable and open data.
    By expressing laws and bills as open data, instead of unstructured 
documents, we believe Congress can ensure accountability to 
constituents, make lawmaking easier, and lay a foundation for automated 
compliance in the future. The Coalition advocates for the passage of 
open legislative data mandates including the Searchable Legislation 
Act, the Statutes at Large Modernization Act, and the Establishing 
Digital Interactive Transparency (EDIT) Act. These mandates, 
collectively, will move Congress to create and use a comprehensive open 
data structure for bills, amendments, and enacted laws.
    Legislative branch drafting and publishing systems have reached a 
crucial point. Current systems are based on 30-year-old formats and 
software. Incremental investments in the existing technologies have 
become unsustainable and will lead to failures throughout the system. 
Meanwhile, legislative data standards and software technologies have 
advanced to define a clear path forward to modernize these systems. The 
excellent work of the members of the United States Legislative Branch 
XML Working Group and others have laid the groundwork for this 
modernization.
    Concerted investment is now needed to build on this groundwork and 
establish an integrated, modern system for legislative information. 
This system should be based on accepted data standards and technologies 
and guided by a few fundamental principles, which we outline below. We 
also provide recommendations for how to best achieve these principles 
based on existing statutory authorities and institutional expertise.
                      open standards for documents
    A common document format should be used throughout the legislative 
branch. Use of a common format improves system efficiency and supports 
the goals of 2 U.S.C. 181 for legislative branch information exchange. 
United States Legislative Markup (USLM) is a legislative drafting 
standard based on the international LegalDocML standard and provides a 
common structure for documents produced throughout the legislative 
branch. USLM's structure assures a consistent preparation of 
legislative materials to facilitate an efficient flow of information 
throughout a complex and nuanced legislative process.
    The Coalition has been supportive of the Statutes at Large 
Modernization Act (H.R. 1729) which would require the Government 
Publishing Office (GPO) to put all historical Federal laws online in a 
machine-readable format. Currently, historical statutes are only 
available as unsearchable PDFs. And while the Law Revision Counsel has 
published the U.S. Code online in USLM, the U.S. Code does not 
represent a complete history of U.S. laws since it only organizes 
(``codifies'') public laws (``Pub.L.'') by subject matter. Conversely, 
the U.S. Statutes at Large lists laws sequentially, as passed by each 
Congress, and includes repealed laws, private laws (``Pvt. L.''), and 
cyclical appropriations bills. By transforming the U.S. Statutes into a 
machine-readable and open format, the GPO would enable powerful 
legislative and legal research through efficient access to fully 
searchable historical laws.
                    open standards for url citations
    In the modern age, data standards also extend to the location of 
documents on the web. In particular, any legislative branch legal 
citation should have a common and standardized path on the web to 
retrieve the cited document. These paths should be extensible to reach 
particular provisions, as is defined in the references within USLM. 
Doing so will create a unified digital reference standard for the 
legislative branch, to support existing legal citation standards. This 
will aid transparency and efficiency within the legislative branch, and 
create tremendous public interest benefits. Developing and implementing 
such standards across agencies of the legislative branch will take an 
initial investment and a clear mandate.
                    funded interagency coordination
    The legislative process, from bill drafting to publication and 
codification, requires the exchange of information and coordination 
between many agencies of the legislative branch. Currently, much of 
this coordination has been informal and has not been specifically 
funded. Thus, data may be lost, delayed, or distorted as it passes from 
one part of the legislative branch to another. Great efforts have been 
made at each agency to minimize such losses, but they are inevitable 
without a specific, funded effort to manage the interchange of data 
and, ideally, create a common software platform for tasks that the 
agencies share.
                    modernize legislative practices
    The United States legislative process is steeped in tradition, much 
of which was based on the most modern technology of the time--paper. 
With a shift to digital information, and a public that will never see a 
printed copy of a statute, certain practices need to change in order to 
provide true transparency today. Practices such as drafting changes in 
redlined text, have been adopted by jurisdictions such as California. 
Changes to the form of submission of amendment (e.g. the Rules 
Committee already supports electronic submission), could also create 
broad benefits. We recommend the creating and funding of a Committee to 
propose technical changes to current practice that could best support 
modern informational infrastructure.
                      transparency for the public
    The various legislative agencies have made great strides toward 
making information about the legislative process available in a timely 
manner and in standard digital formats. This work should continue and 
be supported where necessary. Additionally, the Coalition supports the 
publication of Congressional Research Service (CRS) reports online, in 
a machine-readable and open data format, for full public access. As we 
have publicly stated, CRS reports play a critical role in our 
legislative process by informing lawmakers and staff about the 
important issues of the day. Making CRS reports available as open data 
will modernize a long-outdated and disjointed aspect of the legislative 
process and the public's access to expertise supported by their tax 
dollars. Longstanding congressional policy allows Members and 
committees to use their websites to disseminate CRS products to the 
public, although CRS itself may not engage in direct public 
dissemination. The result is that people with Capitol Hill connections 
can easily obtain CRS reports from any congressional staffer and well-
resourced groups can pay for access from subscription services. We 
believe the public should have timely and consistent access to CRS 
produced public reports.
    In support of these principles we present five recommendations for 
the Committee to consider.
                     standardize documents in uslm
    The Law Revision Counsel has published the U.S. Code online in 
USLM, and there are projects underway at the Government Publishing 
Office (GPO) to convert bills, public laws, statutes, and other 
documents into USLM. As we describe above, the Coalition encourages the 
Committee to fund work at the GPO's Congressional Publishing office to 
begin making the historical United States Statutes at Large available 
to the public at no cost on a website in a searchable, non-proprietary 
format. In doing so the Committee should ensure that this online 
edition of the Statutes at Large is prepared in consultation with those 
entities developing USLM formatting conventions used for enrolled bills 
and other legislative materials. In addition, the Committee should 
allocate funds to the GPO to extend USLM to legislative amendments and 
bill Compilations.
                     fund interagency coordination
    As previously mentioned, interagency coordination and data exchange 
is an essential function. Modernization efforts will be inefficient and 
ineffective if agencies do not have the funds and mandate to 
coordinate. This coordination should include all agencies that produce 
and publish documents in the legislative branch, including the House 
and Senate, GPO, the Library of Congress and the Law Revision Counsel. 
The work of this coordination group should extend the achievements of 
the Legislative Branch XML Working Group, with dedicated resources to 
the integration tasks ahead. This coordination should focus on data and 
document exchange between the agencies, development of common software 
resources, and development and implementation of url citation standards 
for legislative branch documents.
               modernize document drafting and publishing
    The current drafting and amending platforms in the Senate and House 
do not support the more modern, schema based USLM standard. The 
platforms themselves depend on outdated technologies and, in some 
cases, hardware. An investment needs to be made into modernizing these 
drafting platforms, providing a common software platform for agencies 
to draft, exchange, update and publish documents. This effort would 
augment the goal of increased interagency coordination within the 
legislative branch described above.
       establish a house-senate practice modernization taskforce
    As previously mentioned, some legislative drafting practices need 
to be updated in order to support greater transparency and efficiency. 
A task force including Members of interested Committees should be 
established to work with the Legislative Counsel in both the Senate and 
House to review drafting practices and make recommendations for areas 
of improvement. Many of these will not require formal changes in laws 
or rules, but education about preferred practices for maximizing the 
benefits of modern information systems is needed for members and staff.
         support opening congressional research service reports
    We encourage the Committee to consider proposals to comprehensively 
publish and catalogue non-confidential CRS reports on a centralized 
online portal in machine-readable and searchable formats. We do not 
make a specific recommendation on which entity should handle this 
publishing; we leave that decision to the discretion of the Committee. 
We would note that the Secretary of the Senate, Clerk of the House, the 
GPO, the Library of Congress, and libraries in the Federal Depository 
Library Program (FDLP) are all practical entities for hosting. We urge 
the Committee to give great weight to the significant public benefit 
that would result from comprehensive, timely access to this valuable 
public resource.
    We appreciate this opportunity to testify in support of these 
important initiatives and welcome any follow-up with the Committee.

    [This statement was submitted by Christian Hoehner, Director of 
Policy.]
                                 ______
                                 
                 Prepared Statement of Demand Progress
    Dear Chairman Lankford, Ranking Member Murphy, and Members of the 
Committee:

    On behalf of a coalition of organizations and individuals, thank 
you for the opportunity to submit testimony in support of expanded 
public access to Congressional Research Service (CRS) reports. 
Longstanding congressional policy allows Members and committees to use 
their websites to disseminate CRS products to the public, although CRS 
itself may not engage in direct public dissemination. This results in a 
disheartening inequity: insiders with Capitol Hill connections can 
easily obtain CRS reports from any of the 20,000 congressional staffers 
and well-resourced groups can pay for access from subscription 
services. However, members of the public can access only a small subset 
of CRS reports that are intermittently posted on an assortment of not-
for-profit websites. Now is the time for a systematic solution that 
provides timely, comprehensive free public access to and preservation 
of non-confidential reports while protecting confidential 
communications between CRS and Members and committees of Congress.
    CRS reports--not to be confused with confidential CRS memoranda and 
other products--play a critical role in our legislative process by 
informing lawmakers and staff about the important issues of the day. 
The public should have the same access to information. In 2015 CRS 
completed over 1,200 new reports (including other general-distribution 
products) and updated over 2,400 existing products. (CRS also produced 
more than 3,100 confidential memoranda.)
    Our interest in free public access to non-confidential CRS reports 
illustrates the esteem in which the agency is held. CRS reports are 
regularly requested by members of the public and are frequently cited 
by the courts and the media. For example, over the last decade CRS 
reports were cited in 190 Federal court opinions, including 64 at the 
appellate level. Over the same time period, CRS reports were cited 67 
times in The Washington Post and 45 times The New York Times. CRS 
reports often are published in the record of legislative proceedings.
    Taxpayers provide more than $100 million annually in support of 
CRS, and yet members of the public often must look to private companies 
for consistent access to CRS reports. Some citizens are priced out of 
these services, resulting in inequitable access to information about 
government activity that is produced at public expense.
    In fact, while CRS generates a list of all the reports it has 
issued over the previous year, it silently redacts that information 
from the public-facing version of its annual report. This makes it 
difficult for the public to even know the scope of CRS products they 
could obtain from Congress. A Google search returned over 27,000 
reports including 4,260 hosted on .gov domains, but there is no way to 
know if those documents are up to date, what might be missing, or when 
they might disappear from view. We think it critical that in 
circumstances when the public has access to a CRS report, it knows 
whether it is the most recent, up-to-date version.
    Comprehensive free public access to non-confidential CRS reports 
would place the reports in line with publications by other legislative 
support agencies in the United States and around the globe. The 
Government Accountability Office, the Congressional Budget Office, the 
Law Library of Congress, and the 85 percent of G-20 countries whose 
parliaments have subject matter experts routinely publish reports to 
the public. In addition, former CRS analysts with more than 500 years 
of experience have signed a letter calling for public access to the 
reports.
    We hasten to emphasize that we are not calling for public access to 
CRS products that should be kept confidential or are distributed only 
to a small network on Capitol Hill. Memoranda produced at the request 
of a Member or committee and provided to an office in direct response 
to a request should remain confidential unless the office itself 
chooses to release the report. By comparison, we believe no such 
protection should attach to reports typically published on CRS's 
internal website or otherwise generally disseminated.
    We value the work of CRS and in no way wish to impede its ability 
to serve Congress. CRS reports already undergo multiple levels of 
administrative review to ensure they are accurate, non-partisan, 
balanced, and well-written. Authors of every CRS product are aware of 
the likelihood that reports will become publicly available.
    We do not make a specific recommendation on who should 
comprehensively publish non-confidential CRS reports online, although 
the approach outlined in the bipartisan, bicameral legislation known as 
the Equal Access to Congressional Research Service Reports Act of 2016, 
H.R. 4702 (114th) and S. 2639 (114th) is a reasonable. The Clerk of the 
House, the Secretary of the Senate, the Government Publishing Office 
(GPO), the Library of Congress and libraries in the Federal Depository 
Library Program (FDLP) are all reasonable places for the public to gain 
access to these documents. Space constraints prevent us from responding 
in this document to concerns occasionally raised about public access to 
CRS reports, so for more information please go to the document 
identified in the footnote for our evaluation of those concerns.\1\
---------------------------------------------------------------------------
    \1\ See Nov. 12, 2015 letter in support of expanded public access 
to CRS reports, available at https://s3.amazonaws.com/demandprogress/
letters/2015-11-12_Letter_Calling_for_Public_
Access_to_CRS_Reports.pdf and https://goo.gl/sLa37S.
---------------------------------------------------------------------------
    We ask only that all non-confidential reports be published as they 
are released, updated, or withdrawn; that they be published in their 
full, final form; that they are freely downloadable individually and in 
bulk; and that they be accompanied by an index or metadata that 
includes the report ID, the date issued/updated, the report name, a 
hyperlink to the report, and the division that produced the report.
    Thank you again for the opportunity to testimony. If you have 
further questions, please do not hesitate to contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e7a7f70777b725e7a7b737f707a6e6c71796c7b6d6d30716c7930">[email&#160;protected]</a>

            Sincerely yours,

American Association of Law Libraries
American Civil Liberties Union
American Commitment
American Society of News Editors
Americans For Tax Reform
Association of Alternative Newsmedia
Association of Research Libraries
Campaign Finance Institute
Cause of Action
Center for Data Innovation
Center for Democracy & Technology
Center for Responsive Politics
Center for Science and Democracy at the Union of Concerned Scientists
Citizens for Responsibility and Ethics in Washington (CREW)
Common Cause
Council for Citizens Against Government Waste
Data Coalition
Defending Rights & Dissent
Demand Progress
Free Government Information
FreedomWorks
Government Accountability Project
GovTrack.us
LegiStorm
Minnesota Coalition On Government Information
National Coalition for History
National Security Archive
National Security Counselors
National Taxpayers Union
New America's Open Technology Institute
OpenTheGovernment
Project On Government Oversight
Public Citizen
Quorum
R Street Institute
Reporters Committee for Freedom of the Press
Southern Oregon University Hannon Library
Sunlight Foundation
Taxpayers Protection Alliance
TechFreedom
The FOIA Project (foiaproject.org)
Transactional Records Access Clearinghouse (TRAC) at Syracuse 
University
      

Amy Frazier (Middlebury College Libraries) *
Andrew Lopez (Shain Library, Connecticut College ) *
Bert Chapman (Purdue University Libraries) *
Brenda Ellis (Middlebury College) *
Bryan Carson (Middlebury College Library) *
Carrie Macfarlane (Middlebury College Libraries) *
Claire King (Kansas Supreme Court Law Library) *
Dr. William D. Jackson (CRS, retired.) *
Francis Buckley (Former Superintendent of Documents, US Government 
    Printing Office) *
Helen Burke (Minnesota Coalition on Government Information) *
Jada A. Aitchison (UALR Law Library, Little Rock, AR) *
Lois Aleta Fundis (Reference and Government Documents Librarian, Mary 
    H. Weir Public Library, Weirton, WV) *
Melissa Serfass (University of Arkansas at Little Rock William H. Bowen 
    School of Law Library) *
Michael Malbin (University at Albany, SUNY) *
Patrick Wallace (Middlebury College) *
Richard Rowberg (National Academies of Science, Engineering, and 
    Medicine) *
Robert Sippel (Evans Library, Florida Institute of Technology) *
Ryan Clement (Middlebury College) *
Shari Laster (University of California, Santa Barbara) *
Stephen Hayes (University of Notre Dame--Hesburgh Libraries' Mahaffey 
    Business library) *
Susan Bucks (Monmouth University) *
Terry Simpkins (Middlebury College) *
Wendy Swanberg (University of Wisconsin-Madison; Bickford Organics) *

* for affiliation purposes only
Kathleen L. Amen
Henry Cohen
Kayla Cook
Louis Fisher
Jeffrey Griffith
Kay Halstead
Patricia Hassan
Michele Hayslett
Bernadine Abbott Hoduski
Juli Hughes
Kelly McGlynn
Jonathan Medalia
Judy Myers
James Nichol
Norman Ornstein
Jennifer Pesetsky
Margo Pierson
Ronald Russ
Karen Russ
Christine Scott
Karin Shank
Ellen Simmons
Maryellen Trautman
Barbara Wagner

    [This statement was submitted by Daniel Schuman, Policy Director.]
                                 ______
                                 
          Prepared Statement of the Library Copyright Alliance
    The Library Copyright Alliance (``LCA'') consists of three major 
library associations: the American Library Association, Association of 
College and Research Libraries and Association of Research Libraries. 
Collectively, we represent over 100,000 libraries in the United States 
employing more than 350,000 librarians and other personnel. An 
estimated 200 million Americans use these libraries over two billion 
times each year.
    The Library of Congress (``Library'') is one of the world's leading 
research and cultural institutions.\1\ We appreciate the opportunity to 
provide these comments as the subcommittee prepares to make fiscal year 
2018 appropriations for it. We look forward to working with the 
subcommittee and full Appropriations Committee throughout the 
appropriations process to ensure that the Library has the resources it 
needs both to remain preeminent and realize its enormous full potential 
under the new Librarian of Congress (``Librarian''), Dr. Carla Hayden.
---------------------------------------------------------------------------
    \1\ The Library of Congress is a member of the Association of 
Research Libraries but it played no role in the preparation of this 
submission.

---------------------------------------------------------------------------
    We have three principal observations and requests:

    (1) It is imperative that Congress appropriate sufficient funding 
to allow the Library to continue to perform its broad and fundamental 
mission of preserving and providing the public with access to critical 
information resources. At her confirmation hearing last year before the 
Senate Rules Committee, the Librarian articulated a vision under which 
the Library's ``resources are readily available to more people 
online,'' noting that ``[t]his would provide all Americans with ``a 
sense of ownership and pride in this national treasure.'' She also 
spoke eloquently to the power of the Library's deep and significant 
collections to shape educations, lives and the careers of millions of 
people.
    Specifically, the Librarian described how--through the modern 
Library of Congress she hopes to helm--``a child on a reservation in 
New Mexico will have the same access as a high school student in St. 
Louis, Missouri.'' She further envisioned that ``a fifth grader in 
Bowling Green, Kentucky, would be able to view Abraham Lincoln's papers 
from his home computer, and a shy tenth grader from Meridian, 
Mississippi, with dreams of performing, would be able to view the 
Library's Leonard Bernstein collection.''

    (2) It is particularly important that the Library be fully enabled 
financially to truly modernize. The Librarian's objective of 
``continuing movement to open the treasure chest that is the Library of 
Congress'' requires upgrading the Library's information technology (IT) 
infrastructure, which in turn requires more funding. We are well aware 
of the IT management issues at the Library identified in the past by 
the Government Accountability Office, but the Librarian was 
overwhelmingly confirmed by the Senate expressly because (as Members 
observed) she has the IT management and broader library system 
modernization experience necessary to put the Library's IT house in 
order. Indeed, she has already taken several important steps to achieve 
this result.
    Further, and more specifically in this regard, the Librarian also 
testified regarding the importance of the Library balancing its various 
roles, including ``ensur[ing] a fully functional Copyright Office that 
supports the community it serves.'' The Copyright Office has had its 
own IT challenges, as well documented by the GAO and a recent report by 
the Library Inspector General. Addressing these challenges will require 
better IT management within both the Copyright Office and the Library. 
But achieving the IT objectives identified in the Copyright Office's 
2016-2020 strategic plan also requires additional funding.
    We support that plan's IT objectives, including creating a modern 
system for recording commercial and noncommercial copyright documents 
and making copyright records easily searchable and widely available to 
all who need them. In particular, we agree that:

  --Registrations, licenses, and other copyright records should become 
        more accessible and useable to the global public;
  --The public should be able to view records that form the life-cycle 
        of a copyright interest in a more cohesive and comprehensive 
        fashion; and
  --Pre-1978 copyright records should be available online.

    We note that while there is disagreement among stakeholders 
concerning the location of the Copyright Office, there is unanimous 
support that modernization of the Copyright Office cannot and should 
not wait. Thus, it is prudent to focus resources on that area of strong 
consensus, while discussion regarding Copyright Office autonomy 
continues more broadly among all stakeholders.

    (3) Consistent with the goal of increasing public access to 
information, we strongly support expanded access to non-confidential 
Congressional Research Service (CRS) reports. These reports play an 
important role in the legislative process by providing lawmakers and 
staff with non-partisan analyses of the significant issues of public 
concern. Statute should ensure that members of the public also have 
access to this trove of information they paid to create.
    Thank you for the opportunity to submit these request and 
observations. We hope that the subcommittee and full Appropriations 
Committee will consider our organizations as resources and deeply 
interested stakeholders in all of the matters addressed above as the 
appropriations process for fiscal year 2018 evolves. We look forward to 
facilitating your work.
    Please contact LCA's counsel, Jonathan Band, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe5edeee1ebcfffe0e3e6ecf6edeee1ebf8e6ebfbe7a1ece0e2">[email&#160;protected]</a>, with any questions you may have.
                                 <greek-l>
                                 ______
                                 
                 R Street Institute, Kosar, Kevin deg.
              Prepared Statement of the R Street Institute
    Chairman Lankford, Ranking Member Murphy, and Members of the 
Committee:

    Thank you for considering my written testimony. My name is Kevin 
Kosar, and I am vice president of policy for the R Street Institute, a 
free-market think tank here in Washington. I also co-direct the 
Legislative Branch Capacity Working Group, a bipartisan gathering of 
experts and congressional staff who meet monthly to discuss ways to 
reform Congress to meet the demands of the 21st century. Our aim, as we 
say, is to ``Make Congress Great Again.''
    I am here today to encourage the committee to make public access to 
Congressional Research Service reports more equitable. In short, 
lobbyists and other interested persons within the Beltway can get 
copies of CRS reports much more easily than the average member of the 
public. This is not fair, as it is the public whose tax dollars support 
CRS to the tune of $106 million per year.

    Here I will make two brief points:

    First, no harm can come of making the reports more equitably 
available to the public. I spent more than a decade working at CRS, as 
an analyst and a research manager. I love the agency, as do the 24 
other former and retired CRS experts who signed an April 28, 2017 
letter to you in support of broader public access to CRS reports. We 
have 570 years of collective experience working at CRS and we are 
convinced that this is the right thing to do. Forty groups on the left, 
right, and center also support more equitable public access--which 
makes CRS leadership's lonely lobbying against reform look peculiar 
(attached).

    Second, Congress always has made CRS reports available to the 
public, albeit in an ad hoc way. For example, CRS' 1979 annual report 
(pp. 63-85) lists dozens of CRS documents publicly released as 
committee prints, as part of hearings, and in the Congressional Record 
(attached). When the Internet arrived 20 years ago, Congress released 
even more CRS reports to the public. Committees, individual members, 
and various offices within the two chambers posted CRS reports online 
and emailed them to lobbyists, interest groups, and constituents. This 
explains why there are thousands of copies of CRS reports floating 
about the Internet, scattered here and there.
    To conclude, what I and other former CRS employees advocate is that 
Congress continue to publish the reports, but to do so more 
consistently. I think it makes most sense to have Government Publishing 
Office do it, since its job is to make authenticated government 
documents accessible to the public. GPO previously has published CRS 
reports, like the Evolving Congress, which came out late in 2014. As 
previously mentioned, GPO also has published CRS reports as parts of 
committee prints and hearings.

            Thank you.

                              ATTACHMENTS

posted on may 10, 2017 by kevin kosar

           CRS SHOULD STOP FIGHTING ACCESS TO ITS OWN REPORTS

http://www.rstreet.org/2017/05/10/crs-should-stop-fighting-access-to-
its-own-reports/

    The Congressional Research Service plays an essential role in 
policymaking and oversight. It makes Congress smarter about issues and 
teaches new legislators how to legislate. I would not have spent 11 
years working at CRS if I did not think very highly of the institution.
    But there is one topic on which the widely esteemed and nonpartisan 
agency has been embarrassingly biased: the proposals to make its 
reports more equitably available to the public. As a practical matter, 
CRS reports are available--27,000 copies can be found on government and 
private-sector websites. EveryCRSReport.com, for example, has more than 
8,000 reports. But official congressional policy does not provide for 
consistent public release of the reports, which explain the workings of 
Congress, agencies and myriad public policies.
    Legislation has been introduced in this Congress and last Congress 
to fix this situation, and a number of times previously. Reps. Mike 
Quigley, D-Illinois, and Leonard Lance, R-New Jersey, would have the 
Government Publishing Office post the reports on GovInfo.gov. This 
solution would give citizens a central repository to go to read 
authenticated copies of the reports, and would relieve CRS and 
congressional staff of the hassles of responding to reporters, 
lobbyists and constituents who ask for copies.
    Inevitably, CRS proclaims aloud that it takes no position on the 
issue and will do whatever Congress directs. But how are we to square 
that claim with this 2015 memorandum that CRS' leadership shopped to 
legislators? The memorandum is modestly titled: ``Considerations 
arising from the dissemination of CRS products.'' The content, however, 
is nothing but scare-mongering speculation about bad things that might 
happen if more Americans had access to CRS reports. Proponents of 
expanded access to CRS reports quickly demolished the claims made in 
CRS' ``considerations'' memo.
    As someone who once reviewed CRS reports before they were 
published, I can tell you that, had a CRS analyst written this memo, it 
never would have seen the light of day. And said analyst would have 
been rebuked by his or her supervisor. The memorandum not only 
misconstrues what is being proposed?--?nobody is advocating that CRS 
itself distribute the reports--but it also makes no mention of the many 
possible benefits of a change in policy (like increased public 
understanding of how Congress and government operates).
    That means the memo violates CRS' own very clear policies that its 
work for Congress must be accurate and unbiased, and must consider the 
possible benefits and costs of any proposed policy. (This internal CRS 
rule not only is intellectually honest, it also, ahem, protects the 
agency from having its work give the appearance of bias.)
    One hopes that someone in Congress would call CRS leadership to the 
carpet on this tartuffery, and demand the agency to disavow the 
memorandum. In a time when Federal budget cuts are being seriously 
discussed, the agency does itself, its employees and Congress no favors 
by being the lone voice advocating against common-sense reform.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             <greek-l>R Street Institute, Moss, Sasha deg.
              Prepared Statement of the R Street Institute
To:  Senate Committee on Appropriations, Subcommittee on the 
    Legislative Branch

Re: Public Access to Legislative Information (Congressional Research 
    Service)

May 12, 2017

Dear members of the subcommittee:

    The following is a letter addressed to the chairmen and ranking 
members of the Joint Committee on the Library; the House and Senate 
legislative branch appropriations subcommittees; the Committee on House 
Administration; and the Senate Committee on Rules and Administration. 
It was signed by 25 former Congressional Research Service (``CRS'') 
employees, with a combined 570 years of service with the agency. They 
formally request that Congress provide a central online source for 
timely public access to CRS reports, which would allow all members of 
the public to enjoy access on equal footing and to verify that the 
reports are authentic. The nonconfidential reports of other 
legislative-branch support agencies--such as the Congressional Budget 
Office, the Government Accountability Office, and the Library of 
Congress' law library--already are made available publicly. These 
former and retired CRS employees respectfully request the same of CRS 
reports.

25 former CRS employees: Give free public access to CRS reports

Dear Chairman Harper, Chairman Shelby, Chairman Yoder, Chairman 
Lankford, Ranking Member Brady, Ranking Member Klobuchar, Ranking 
Member Ryan, and Ranking Member Murphy:

    We are 25 former employees of the Congressional Research Service 
(CRS) with a collective 570 years of service with the agency. We write 
in strong support of timely, comprehensive free public access to CRS 
reports. In doing so, we distinguish between CRS reports, which are 
non-confidential, and other CRS products, such as memoranda, which are 
confidential.
    CRS plays a vital role in our legislative process by informing 
lawmakers and staff about important policy issues. To that end, nothing 
should impair CRS's ability to provide confidential support to members 
of Congress, such as through briefings and confidential memoranda. Nor 
should Congress take any steps to weaken the Constitutionally-protected 
status of CRS's work product. In contrast, CRS reports are widely 
available on Capitol Hill to staff and lobbyists alike, are released 
with no expectation of confidentiality, and could be of immense value 
to the general public.
    Longstanding congressional policy allows Members and committees to 
distribute CRS products to the public, which they do in a variety of 
ways. In addition, CRS provides reports upon request to the judicial 
branch, to journalists, and to the executive branch, which often 
publishes them on agency websites. Insiders with relationships to 
congressional staff can easily obtain the reports, and well-resourced 
groups pay for access from third-party subscription services. Members 
of the public, however, can freely access only a subset of CRS reports, 
usually via third parties.
    It is difficult for the public to know the scope of CRS products 
they could obtain from Congress. A Google search returned over 27,000 
products including 4,260 hosted on .gov domains, but there is no way to 
know if those documents are up to date, whether the search is 
comprehensive, or when the documents might disappear from view.
    We believe Congress should provide a central online source for 
timely public access to CRS reports. That would place all members of 
the public on an equal footing to one another with respect to access. 
It would resolve concerns around public and congressional use of the 
most up-to-date version. Additionally, it would ensure the public can 
verify it is using an authentic version. And it would diminish requests 
to analysts to provide a copy of the most recent report. Other 
legislative support agencies, i.e., the Congressional Budget Office and 
the Government Accountability Office, publish non-confidential reports 
on their websites as a matter of course. Doing so does not appear to 
harm their ability to perform their mission for Congress.
    We thank you for the opportunity to share our thoughts on 
implementing full public access to non-confidential CRS reports. If you 
wish to discuss this further, please contact Daniel Schuman, Demand 
Progress policy director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f4f1fef9f5fcd0f4f5fdf1fef4e0e2fff7e2f5e3e3beffe2f7">[email&#160;protected]</a>, or Kevin Kosar, 
R Street Institute senior fellow and governance director, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fcfcf8e4f6e5d7e5e4e3e5f2f2e3b9f8e5f0b9">[email&#160;protected]</a> Thank you for your consideration of this matter.

            With best regards,

                    Henry Cohen, George Costello, Heather Durkin, Gregg 
                            Esenwein, Louis Fisher, Peggy Garvin, Jeff 
                            Griffith, Pamela Hairston, Glennon J. 
                            Harrison, John Haskell, Kevin Holland, 
                            Thomas Hungerford, W. Jackson, Nancy Jones, 
                            Kevin Kosar, Jon Medalia, Jim Nichol, 
                            Elizabeth Palmer, Harold Relyea, Mort 
                            Rosenberg, Dick Rowberg, Daniel Schuman, 
                            Christine Scott, Sherry Shapiro, and Nye 
                            Stevens.

cc: Joint Committee on the Library
 House Legislative Branch Appropriations Subcommittee
 Senate Legislative Branch Appropriations Subcommittee
 Committee on House Administration
 Senate Committee on Rules and Administration
 Leadership of the House of Representatives
 Leadership of the United States Senate

    [This statement was submitted by Sasha Moss, Tech Policy Manager.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
